               U.S. Department of Agriculture
                  Office of Inspector General




      Audit Report

Food and Nutrition Service
 Financial Statements for
Fiscal Years 2009 and 2008




                       Audit Report 27401-34-Hy
                                November 2009
                                  U.S. Department of Agriculture
                                   Office of Inspector General
                                     Washington, D.C. 20250




DATE:         November 6, 2009

REPLY TO
ATTN OF:      27401-34-Hy

TO:           Julia M. Paradis
              Administrator
              Food and Nutrition Service

ATTN:         E. Enrique Gomez
              Acting Chief Financial Officer
              Food and Nutrition Service

FROM:         Robert W. Young /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Food and Nutrition Service Financial Statements for Fiscal Years 2009 and 2008


This report presents the results of our audit of the Food and Nutrition Service’s financial
statements for the fiscal years ending September 30, 2009 and 2008. The report contains an
unqualified opinion on the financial statements as well as the results of our assessment of the
Food and Nutrition Service’s internal controls over financial reporting and compliance with laws
and regulations.

Based on the information provided during the audit, we are making no further recommendations
within this report.

We appreciate the courtesies and cooperation extended to us during the audit.
Table of Contents

Executive Summary ................................................................................... 1 
Opinion on the Consolidated Financial Statements ............................... 2 
Consideration of Internal Control ............................................................. 2 
Compliance with Laws and Regulations .................................................. 3 
Additional Other Procedures .................................................................... 4 
Responsibilities.......................................................................................... 5 
Abbreviations ............................................................................................. 7 
Exhibit A: Financial Statements .............................................................. 8 
Food and Nutrition Service Financial Statements for Fiscal Years 2009
and 2008
(Audit Report 27401-34-Hy)

Executive Summary
Purpose
Our audit objectives were to determine whether the (1) financial statements present fairly, in all
material respects, in accordance with generally accepted accounting principles, the assets,
liabilities, and net position; net costs; changes in net position; and budgetary resources; (2)
internal control objectives for financial reporting were met; and (3) Food and Nutrition Service
(FNS) complied with laws and regulations for those transactions and events that could have a
direct and material effect on the financial statements. We also determined that the Management
Discussion and Analysis was materially consistent with the information in the financial
statements.
We conducted our audit at the FNS national office in Alexandria, Virginia. We also performed a
site visit to the Federal Reserve Bank in Richmond, Virginia, and obtained information from all
FNS regional offices.
Results in Brief
In our opinion, FNS’ comparative financial statements for fiscal years 2009 and 2008, including
the accompanying notes, present fairly in all material respects, the assets, liabilities, and net
position of FNS as of September 30, 2009 and 2008; and its net costs, changes in net position,
and budgetary resources, in conformity with accounting principles generally accepted in the
United States of America.
In the section entitled “Consideration of Internal Control,” we report that although FNS reported
no material weaknesses in its FY 2009 Federal Manager’s Financial Integrity Act, FNS did
report one control deficiency that was part of a Department-wide material weakness on
unliquidated obligations and seven significant deficiencies relative to a minor agency financial
system.
In the section entitled “Compliance with Laws and Regulations,” we report that FNS’ core
financial system is in substantial compliance with the Federal Financial Management
Improvement Act of 1996. We did report that the agency was not in full compliance with the
Improper Payments Improvement Act of 2002.




                                                                                                     1
Independent Auditor’s Report
Julia M. Paradis
Administrator
Food and Nutrition Service


Opinion on the Consolidated Financial Statements
We have audited the accompanying balance sheets of the Food and Nutrition Service (FNS) as of
September 30, 2009 and 2008, and the related statements of net cost, changes in net position, and
the combined statements of budgetary resources (herein afterward referred to as the “financial
statements”) for the fiscal years (FY) then ended. The financial statements are the responsibility
of FNS’ management. Our responsibility is to express an opinion on the financial statements
based on our audits.
We conducted our audits in accordance with standards generally accepted in the United States of
America (the standards applicable to financial audits are contained in Government Auditing
Standards issued by the Comptroller General of the United States), and the Office of
Management and Budget (OMB) Bulletin 07-04, Audit Requirements for Federal Financial
Audits, as amended. Those standards and OMB Bulletin 07-04, as amended, require that we
plan and perform the audits to obtain reasonable assurance that the financial statements are free
of material misstatements. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation. We believe our audits provide a reasonable basis for
our opinion.
In our opinion, the financial statements referred to above, present fairly, in all material respects,
the financial position of the FNS as of September 30, 2009 and 2008; and its net costs; changes
in net position; and budgetary resources for the year then ended, in conformity with accounting
principles generally accepted in the United States of America.
The information in FNS’ Management Discussion and Analysis and Required Supplementary
Information is not a required part of the consolidated financial statements, but is supplemental
information required by accounting principles generally accepted in the United States of America
and OMB Circular A-136. We have applied certain limited procedures, consisting primarily of
inquiries of management regarding the methods of measurement and presentation of this
information. However, we did not audit this information and, accordingly, express no opinion on
it.

Consideration of Internal Control
Our consideration of the internal controls over financial reporting was for the limited purposes
described in the Responsibilities section of this report and would not necessarily identify all
matters in the internal controls over financial reporting that might be significant deficiencies.
Under standards issued by the American Institute of Certified Public Accountants significant
deficiencies are deficiencies in internal control, or a combination of deficiencies, that adversely
affect FNS’ ability to initiate, authorize, record, process, or report financial data reliably and in
accordance with accounting principles generally accepted in the United States of America such
                                                                                                        2
that there is more than a remote likelihood that a misstatement of the financial statements being
audited that is more than inconsequential will not be prevented or detected. Material weaknesses
are significant deficiencies, or combinations of significant deficiencies, that result in more than a
remote likelihood that material misstatements in relation to the financial statements being audited
will not be prevented or detected. Because of inherent limitations in any system of internal
control, misstatements due to error or fraud may occur and not be detected.
FNS asserted through its FY 2009 Federal Manager’s Financial Integrity Act (FMFIA)
submission that although no material weaknesses were identified, it did identify one control
deficiency that was part of a Department-wide material weakness on unliquidated obligations.
FNS also identified seven significant deficiencies in an agency financial system that processes
transaction amounts immaterial to the overall FNS financial reporting system. Our tests of data
submitted by the system did not disclose any errors. FNS has established corrective action plans
as required by OMB Circular A-123 to address both of the issues identified in the FMFIA
assurance statement.
While FNS can provide reasonable assurance relating to the adequacy of internal controls over
its financial reporting and financial systems for FY 2009, they have identified the following
concerns that will require continued vigilance and efforts relating to the operations of the agency.
FNS officials stated that the agency and its partners are in the planning and early implementation
stages for several major system transitions including: web-based supply chain configuration
management (WBSCM), Financial Management Modernization Initiative (FMMI), and
Supplemental Nutrition Assistance Program Account Management Agent (SNAP-AMA). Those
officials added that managing the deployment of these systems, which is projected to occur over
the next three years, poses significant risk for the FNS. If the implementation of the new
systems falters, the impact will be felt not only at FNS but also at the Department level. As an
example, the Processed Commodity Inventory Management System (PCIMS) is being converted
to WBSCM. FNS officials stated that failure to get FNS’ State partners up and running with
WBSCM may ultimately result in commodity benefits not being delivered to program recipients.

Compliance with Laws and Regulations
As part of obtaining reasonable assurance about whether the financial statements are free of
material misstatement, we performed tests of FNS’ compliance as described in the
Responsibilities section of this report. The results of our tests disclosed two instances of
reportable noncompliance with other laws and regulations discussed in the Responsibilities
section of this report that are required to be reported under Government Auditing Standards and
OMB Bulletin 07-04, as amended. We found that although FNS has made significant progress
with the 2002 Improper Payments Improvement Act (IPIA), they are still not in full compliance
with its requirements regarding the design of program internal controls relating to reporting
improper payments.
The IPIA requires agency officials to estimate erroneous payments for all programs susceptible
to significant improper payments. FNS has not reported the amount of improper payments they
expect to recover involving the Special Nutrition Assistance Program (SNAP), the Special
Supplemental Nutrition Program for Women, Infants, and Children (WIC), the Child and Adult
Care Food Program (CACFP), the National School Lunch Program (NSLP), and the School
Breakfast Program (SBP).

                                                                                                   3
FNS reported estimated improper payments for SNAP, NSLP, and SBP. However, FNS has not
reported erroneous payment rates for WIC certification errors and CACFP claiming errors. As
stated in the FNS Management Discussion and Analysis (MD&A), work is currently underway
to report on WIC certification errors. An estimate of erroneous payments associated with
certification actions will be available in 2011. Regarding CACFP claiming errors, FNS has
developed a methodology to randomly sample the results of State monitoring visits to Family
Day Care Homes and follow up by observing the Family Day Care Homes or contacting parents
to corroborate the Family Day Care Sponsors’ child claimant reports. The estimate for WIC
certification errors will be available in 2011.
The IPIA also requires that agencies report the amount of erroneous payments the agency
expects to recover and how it will recover them. FNS has not reported the amount of improper
payments they expect to recover for the SNAP, the WIC, the CACFP, the NSLP, and the SBP.
FNS explains in section 4 of their MD&A that current statute only provides authority to recover
improper payments identified through reviews, audits, or other operational oversight activity. As
such, the WIC, CACFP, NSLP, and SBP would need new statutory authority to pursue collection
of improper payments identified on the basis of statistical sampling or estimation procedure. FNS
further explains that an estimated recovery target for the SNAP is not feasible because it does not
anticipate fluctuations in the economy and recipient population, and does not take into account
the variability of State collection systems.

Additional Other Procedures
As required by OMB Bulletin 07-04, as amended, with respect to internal controls related to key
performance measures as determined by management and reported in the MD&A, we obtained
an understanding of the design of significant internal controls relating to the existence and
completeness assertions and determined if they had been placed in operation. Our procedures
were not designed to provide assurance on internal controls over reported performance measures;
accordingly, we do not provide an opinion on such controls.
As further required by OMB Bulletin 07-04, as amended, we considered FNS’ internal controls
over Required Supplementary Stewardship Information (RSSI) by obtaining an understanding of
the internal controls, along with making a determination if those controls had been placed in
operation, assessing control risk, and performing tests of the controls. Our procedures were not
designed to provide assurance on internal controls over RSSI; accordingly, we do not provide an
opinion on such controls.
This report is intended for the information and the use by the management of FNS, and OMB
and Congress, and is not intended to be, and should not be, used by anyone other than these
specified parties.
Additionally, the results of our tests disclosed no instances in which FNS’ financial management
systems did not substantially comply with Federal Financial Management Improvement Act.




                                                                                                 4
Responsibilities
Management’s Responsibilities. Management is responsible for the consolidated financial
statements, establishing and maintaining effective internal control, and complying with laws and
regulations.
Our Responsibilities. The objective of our audit was to express an opinion on the fair
presentation of the accompanying financial statements. We conducted our audit in accordance
with auditing standards generally accepted in the United States of America (the standards
applicable to financial audits are contained in Government Auditing Standards issued by the
Comptroller General of the United States); and OMB Bulletin 07-04 Audit Requirements for
Federal Financial Statements, as amended. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the
accounting principles used, and significant estimates made by management, as well as evaluating
the overall financial statement presentation. We believe that our audits provide a reasonable basis
for our opinion.
In planning and performing our audits, we considered FNS’ system of internal control over
financial statement reporting by obtaining an understanding of the design effectiveness of
internal controls, determining whether the internal controls had been placed in operation,
assessing control risk, and performing tests of controls in order to determine our audit procedures
for the purpose of expressing our opinion on the financial statements. We limited our internal
control testing to those controls necessary to achieve the objectives described in OMB 07-04, as
amended, and Government Auditing Standards. We did not test all internal controls as defined by
the Federal Managers Financial Integrity Act of 1982. The objective of our audits was not to
provide an opinion on FNS’ internal control. Consequently, we do not provide an opinion on
internal controls over financial reporting.
As part of obtaining reasonable assurance about whether the financial statements are free of
material misstatement, we performed tests of FNS’ compliance with certain provisions of laws
and regulations, contracts and agreements, and Governmentwide policy requirements,
noncompliance with which could have a direct and material effect on the determination of the
financial statement amounts. We also obtained reasonable assurance that the FNS complied with
certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04, as
amended, including requirements referred to in the Federal Financial Management Improvement
Act of 1996, except for those that, in our judgment, were clearly inconsequential. We limited
our tests of compliance to the provisions described in the preceding sentences and did not test
compliance with all laws and regulations applicable to FNS. However, providing an opinion on
compliance with laws and regulations was not an objective of our audits, and accordingly, we do
not express an opinion.




                                                                                                 5
This report is intended for the information and the use by the management of FNS, and OMB
and Congress, and is not intended to be, and should not be, used by anyone other than these
specified parties.



Robert W. Young /s/
Assistant inspector General
 For Audit


November 3, 2009




                                                                                              6
                                                 Abbreviations

OIG ............................. Office of Inspector General
FNS ............................. Food and Nutrition Service
FY ............................... Fiscal Year
OMB ........................... Office of Management and Budget
USDA.......................... United States Department of Agriculture
WBSCM ...................... web-based supply chain management
FMMI .......................... Financial Management Modernization Initiative
SNAP-AMA ................ Supplemental Nutrition Assistance Program – Account Management
Agent
PCIMS......................... Processed Commodity Inventory Management System
IPIA ............................. Improper Payment Improvement Act
SNAP .......................... Supplemental Nutrition Assistance Program




                                                                                           7
Exhibit A: Financial Statements




                             USDA

             Food and Nutrition Service

                     Fiscal Year 2009

                  Financial Statements

                     Prepared by FNS




                                          8
                        FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                      MANAGEMENT DISCUSSION AND ANALYSIS




               MANAGEMENT DISCUSSION AND ANALYSIS

SECTION 1: MISSION, ORGANIZATIONAL STRUCTURE AND PROGRAMS

The Food and Nutrition Service (FNS) is an agency within the U.S. Department of Agriculture (USDA). FNS was
established August 8, 1969, by Secretary's Memorandum No. 1659 and Supplement 1 pursuant to the authority
contained in 5 U.S.C. 301 and Reorganization Plan No. 2 of 1953.

FNS is the Federal agency responsible for managing the domestic nutrition assistance programs. Its mission is to
increase food security and reduce hunger in partnership with cooperating organizations by providing children and
low-income people access to food, a healthful diet, and nutrition education in a manner that supports American
agriculture and inspires public confidence.

The FNS annual appropriation for administrative funds includes a very small percentage of funds for the
administration of the Center for Nutrition Policy and Promotion (CNPP). CNPP links scientific research to the
nutrition needs of consumers through science-based dietary guidance, nutrition policy coordination, and nutrition
education. CNPP develops integrated nutrition research, education, and promotion programs and provides science-
based dietary guidance. The agency was re-aligned at the beginning of FY 2008 to promote increased efficiencies
and improved customer service. Additional changes were made in FY 2009.

FNS FY 2009 Organization Chart




                                                    Page 1 of 49
                         FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                       MANAGEMENT DISCUSSION AND ANALYSIS




Descriptions of FNS Programs:
Over the past half-century – beginning with the National School Lunch Program in 1946 – the Nation has gradually
built an array of nutrition assistance programs designed to help the most vulnerable populations meet their food
needs. Taken together, the current programs form a nationwide safety net supporting low-income families and
individuals in their efforts to escape food insecurity and hunger and achieve healthy, nutritious diets. Currently, the
programs administered by FNS touch the lives of one in five Americans over the course of a year.

The nutrition assistance programs described below works both individually and in concert with one another to
improve the Nation’s nutrition and health by improving the diets of children and low-income households.

•   Supplemental Nutrition Assistance Program (SNAP): Authorized by the Food and Nutrition Act of 2008, SNAP
    serves as the primary source of nutrition assistance for over 32 million low-income people. It enables
    participants, about 49 percent of whom are children, to improve their diets by increasing food purchasing power
    using benefits that are redeemed at authorized retail grocery stores across the country. State agencies are
    responsible for the administration of the program according to national eligibility and benefit standards set by
    Federal law and regulations. Benefits are 100 percent Federally-financed, while administrative costs are shared
    between the Federal and State Governments.

    SNAP provides the basic nutrition assistance benefit for low-income people in the United States; other FNS
    programs supplement this program with benefits targeted to special populations, dietary needs and delivery
    settings. (Puerto Rico, the Commonwealth of the Northern Mariana Islands, and American Samoa receive grant
    funds with which to provide food and nutrition assistance in lieu of SNAP.)

•   Food Distribution Program on Indian Reservations (FDPIR): FDPIR distributes USDA-purchased foods as an
    alternative to SNAP for Indian households on or near reservations. State agencies and Indian Tribal
    Organizations (ITOs) that operate the program are responsible for certifying recipient eligibility, nutrition
    education, local warehousing and transportation of food, distribution of food to recipient households, and
    program integrity. The Federal Government pays 100 percent of the cost of commodities distributed through
    the program, and cash payments for administrative expenses.

•   Child Nutrition Programs (CNP): The Child Nutrition Programs - National School Lunch (NSLP), School
    Breakfast (SBP), Special Milk (SMP), Child and Adult Care Food (CACFP), and Summer Food Service (SFSP)
    - provide reimbursement to State and local governments for nutritious meals and snacks served to over 31
    million children in schools, child care institutions, adult day care centers, and after school care programs. FNS
    provides cash and USDA purchased food on a per-meal basis to offset the cost of food service at the local level
    and a significant portion of State and local administrative expense, and provides training, technical assistance,
    and nutrition education. Payments are substantially higher for meals served free or at a reduced price to
    children from low-income families.

•   Special Supplemental Nutrition Program for Women, Infants and Children (WIC): WIC addresses the
    supplemental nutritional needs of at-risk, low-income pregnant, breastfeeding and postpartum women, infants
    and children up to five years of age. It provides participants monthly supplemental food packages targeted to
    their dietary needs, nutrition education, and referrals to a range of health and social services – benefits that
    promote a healthy pregnancy for mothers and a healthy start for their children. Appropriated funds are provided
    to States for food packages and nutrition services and administration for the program; States operate the
    program pursuant to plans approved by FNS. WIC is augmented in some localities by the Farmers’ Market
    Nutrition Program, funded within the Commodity Assistance Program account, and authorized by the WIC
    Farmers’ Market Nutrition Act of 1992, which provides fresh produce to WIC participants.




                                                      Page 2 of 49
                         FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                       MANAGEMENT DISCUSSION AND ANALYSIS




•   The Emergency Food Assistance Program (TEFAP): This program supports the emergency food organization
    network by distributing USDA-purchased food for use by emergency feeding organizations including soup
    kitchens, food recovery organizations, and food banks. TEFAP also provides administrative funds to defray
    costs associated with processing, repackaging, storage, and distribution of Federal and privately donated food.
    The allocation of both Federal food and administrative grants to States is based on a formula that considers the
    States’ unemployment levels and the number of persons with income below the poverty level.

•   The Commodity Supplemental Food Program (CSFP): This program provides foods purchased by USDA to
    low-income infants and children up to age six, low-income pregnant and postpartum women, and to low-income
    senior citizens. In recent years, there has been a shift towards low-income elderly in this program; in FY 2008,
    elderly participation comprised approximately 93 percent of total participation. Foods are distributed through
    State agencies to supplement food acquired by recipients from other sources. The CSFP is operated as a
    Federal/State partnership under agreements between FNS and State health care, agricultural or education
    agencies. Currently, 32 States, the District of Columbia, and two Indian reservations operate CSFP.

•   Senior Farmers’ Market Nutrition Program (SFMNP): This program provides coupons to low-income seniors
    that can be exchanged for fresh, nutritious, unprepared, locally grown fruits, vegetables and herbs at farmers’
    markets, roadside stands, and community-supported agriculture programs.

•   Pacific Island and Disaster Assistance: Pacific Island Assistance includes assistance to the nuclear-affected
    zones of the Republic of the Marshall Islands in the form of USDA purchased food, or cash-in-lieu of food, and
    administrative funds and is authorized under the Compact of Free Association Amendments Act of 2003, (P.L.
    108-188). Disaster relief funds are provided for use in non-Presidentially declared disasters.

Federal nutrition assistance programs operate as partnerships between FNS and the State and local organizations that
interact directly with program participants. States voluntarily enter into agreements with the Federal Government to
operate programs according to Federal standards in exchange for program funds that cover all benefit costs, and a
significant portion of administrative expenses.

Under these agreements, FNS is responsible for implementing statutory requirements that set national program
standards for eligibility and benefits, providing Federal funding to State and local partners, and monitoring and
evaluating to make sure that program structures and policies are properly implemented and effective in meeting
program missions. State and local organizations are responsible for delivering benefits efficiently, effectively, and in
a manner consistent with national requirements.




                                                      Page 3 of 49
                         FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                       MANAGEMENT DISCUSSION AND ANALYSIS




FNS Staff:

The public servants of FNS are an important resource for advancing the key outcomes sought through the nutrition
assistance programs. The agency staff serves to ensure and leverage the effective use of the other program
appropriations.


FNS staff is funded primarily out of the Nutrition Programs Administration account, which represents approximately
one-third of one percent of the total FNS budget. The agency employment level represents less than two percent of
the total employment within USDA and is similarly small in proportion to the total State-level staff needed to
operate the programs. The agency employs people from a variety of disciplines, including policy and management
analysts, nutritionists, computer and communication experts, accountants, investigators, and program evaluators.
Because of the small size of the agency’s staff relative to the resources it manages, FNS has created clear and
specific performance measures and must focus its management efforts in a limited number of high-priority areas.

Program operations are managed through FNS’ seven regional offices and 67 field offices/satellite locations. A
regional administrator directs each regional office. These offices maintain direct contact with State agencies that
administer the FNS programs. The agency’s regional offices also conduct on-site management reviews of State
operations and monitor the 177,052 stores authorized to redeem SNAP benefits.

As of September 30, 2009, there were 1,272 full-time permanent employees in the agency. There were 457
employees in the Washington headquarters office; and 815 in the field, which includes seven regional offices; 67
field offices; four SNAP compliance offices in Illinois, California, New Jersey, and Tennessee; and a computer
support center in Minneapolis, Minnesota. The chart below displays staff year utilization.


                                                                    2008          2009             2010
         Project                                                    Actual        Actual         Requested
         Supplemental Nutrition Assistance Program                        77           104                98
         Child Nutrition Programs                                        154           158               170
         Nutrition Programs Administration                             1,016           982            1,028
         Center for Nutrition Policy and Promotion                        24             28               32
         Total Available                                               1,271         1,272            1,328




                                                     Page 4 of 49
                          FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                        MANAGEMENT DISCUSSION AND ANALYSIS




SECTION 2. PERFORMANCE GOALS, OBJECTIVES and
RESULTS
The FNS agency goal and objectives are fully integrated into USDA’s Strategic Goal 5 and three related Department
Strategic objectives. Each Department Strategic Objective has a key outcome and indicator, as discussed below.

USDA Strategic       USDA Strategic          Programs that
                                                         1            Key Outcomes                Key Indicators
    Goal                Objective             Contribute
                  USDA Strategic
                                                                  Key Outcome 1:
                  Objective 5.1:         SNAP, CN, WIC,                                        Program Participation
                                                                  Reduce hunger and
                  Ensure Access to       CAP, FDPIR, TEFAP                                     Rates
                                                                  improve nutrition.
                  Nutritious Food
                  USDA Strategic                                  Key Outcome 2:
USDA Goal 5:      Objective 5.2:         SNAP, CN, WIC            Promote more healthful
                                                                                               Nutrition Guidance
Improve the       Promote Healthier                               eating and physical
                                                2                                              Distribution Volume
Nation’s          Eating Habits and      CNPP                     activity across the
Nutrition and     Lifestyles                                      Nation.
Health            USDA Strategic
                  Objective 5.3:                                  Key Outcome 3:
                  Improve Nutrition      SNAP, CN, WIC            Maintain a high level of     SNAP Payment
                  Assistance Program                              integrity in the nutrition   Accuracy Rate
                  Management and                                  assistance programs.
                  Customer Service




STRATEGIC GOAL 5: IMPROVE THE NATION’S NUTRITION AND
HEALTH

Nutrition is the link between agriculture and the Nation’s health, and the Department made strong
progress in advancing our nutrition and health goal in 2009. USDA’s leadership of the Federal nutrition
assistance programs made a healthier diet available for millions of children and low-income families. And
the cutting-edge nutrition promotion efforts of the Center for Nutrition Policy and Promotion harnessed
interactive technologies to motivate all Americans to make positive dietary behavioral changes consistent
with the Dietary Guidelines for Americans and the HealthierUS initiative. Key 2009 accomplishments
include:

Promoting access to the Supplemental Nutrition Assistance Program (SNAP): Formerly the Food
   Stamp Program, SNAP is the Nation’s largest nutrition assistance program, serving a record high 34
   million people each month and growing. The latest information on the rate of participation among
   eligible people showed that in 2007, 66 percent of all who were eligible participated as compared with
   54 percent in 2001.

Promoting Nutrition Education by Using the MyPyramid Food Guidance System. MyPyramid—a
   network of nutrition education tools that translates the Dietary Guidelines for Americans into
   understandable concepts for consumers—offers the American public an individualized approach to



1
  SNAP = Supplemental Nutrition Assistance Program (formerly the Food Stamp Program), CN=Child Nutrition (includes the
National School Lunch Program, the School Breakfast Program, and the Special Milk Program), WIC = Special Supplemental
Nutrition Program for Women, Infants & Children, CAP = Commodity Assistance Programs, FDPIR = Food Distribution
Program on Indian Reservations, TEFAP = The Emergency Food Assistance Program
2
  CNPP = Center for Nutrition Policy & Promotion (Partner agency to FNS within USDA)

                                                      Page 5 of 49
                      FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                   MANAGEMENT DISCUSSION AND ANALYSIS




    nutritional well-being and active living. MyPyramid.gov’s web-based educational tools help
    Americans assess and personalize their diet and physical activity plans. . The newest tool was the
    MyPyramid for Preschoolers (ages 2 to 5 years old) to help parents use MyPyramid to help their
    young children eat well, be active, and be healthy. Consumers continue to respond enthusiastically
    to this educational approach; thus, CNPP continues to develop new educational tools to promote
    nutrition education to specific population groups to help stem the trends in obesity and nutrition-
    related diseases. In 2009, MyPyramid.gov and other nutrition related web-based tools were accessed
    or used by over 3.5 billion times bringing the overall total since April 2005 to 7.5 billion.



Continuing to ensure that SNAP benefits are accurately issued. The SNAP payment accuracy rate
   for FY 2008, announced in 2009, was 94.99 percent, a new record high that reflects effective
   partnerships with State administering agencies, and extensive use of policy options to streamline
   program adminstration while improving access for working families.


In FY 2009, USDA continued to improve the quality of Americans’ diets through research-based nutrition
enhancements to the Nation’s food supply, and better knowledge and education to promote healthier food
choices. In FY 2009, USDA pursued national policies and programs to ensure that everyone has access
to a healthy diet regardless of income, and that the information is available to support and encourage
good nutrition choices.

USDA’s success in promoting public health through good nutrition and the effectiveness of its nutrition
assistance education programs relies heavily on research. The research provides critical knowledge of
what we need to eat to stay healthy and how that knowledge can be conveyed to the public in a manner
that leads to true changes in our diets. Research also supports development of new healthy and tasty
food products providing another avenue for helping consumers eat well.



OBJECTIVE 5.1: ENSURE ACCESS TO NUTRITIOUS FOOD
Overview

USDA’s commitment to the nutrition assistance programs—the core of the Nation’s effort to improve food
security and reduce and prevent hunger—is guided by a straightforward principle: to ensure that all
Americans who are eligible and wish to participate can receive program services easily, and with dignity
and respect. The strong performance of the programs in 2009 reflects their fundamental strengths, and
the Department’s efforts to promote access and improve service to our clients in cooperation with our
State partners.

Challenges for the Future

Studies and analyses show that there continue to be large numbers of eligible people who do not
participate in Federal nutrition assistance programs. Many may not be aware that they are eligible.
Therefore, efforts to improve access to and promote awareness of these programs, and seeking
improvements in policy and operations that make it easier to apply, are ongoing challenges.

The quality of program delivery by third parties—hundreds of thousands of State and local Government
workers and their cooperators—is critical to Department efforts to reduce hunger and improve nutrition.
Our ongoing efforts in partnership with these entities to improve program operations with new



                                                Page 6 of 49
                                FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                               MANAGEMENT DISCUSSION AND ANALYSIS




technologies and business processes, must always focus on customer service and ease of access to
benefits, along with efficiency, as central components of program effectiveness.

                                   KEY OUTCOME
                                              Reduce hunger and improve nutrition


In FY 2009, the Department and its program delivery partners sustained effective access to the programs,
with greater-than-targeted participation in SNAP , and expected levels of average monthly participation in
the National School Lunch Program, School Breakfast Program, and WIC.


Analysis of Results

As program participation is voluntary, participation projections are estimates based on economic and
other factors that impact the likely behavior of eligible populations. An analysis of the most recent
information available follows:


Exhibit 1:        Improve Access to Nutritious Food

                                                                                                   Fiscal Year 2009
                 Annual Performance Goals and Indicators                             Target              Actual       Result
    5.1.1    Participation levels for the major Federal nutrition assistance
             programs (millions per month):
                  Supplemental Nutrition Assistance Program                        32.6 million       33.9 million
                  National School Lunch Program                                    31.6 million       31.6 million
                                                                                                                       Met
                  School Breakfast Program                                         11.0 million       11.0 million
                Special Supplemental Nutrition Program for Women, Infants
                                                                                     9.3 million        9.3 million
             and Children (WIC)




 Supplemental Nutrition Assistance Program—The program served more than 34 million participants
in May 2009, a record high and an increase of about 21 percent from May 2008. USDA executed a
range of efforts to support and encourage SNAP participation in FY 2009, including:

•      Rapidly implementing key provisions of the 2008 Farm Bill that expanded liability and increased
       benefits; and simplified program administration.
•      Continued efforts with States to develop outreach strategies, with 40 out of 53 State Agencies having
       formal outreach plans or other documented outreach activity in place.
•      Supported innovative State practices to promote access by simplifying the application process.
       Latest available data shows that 23 States have internet-based application filing; nearly 25 States
       allow interviews to be done by telephone; and 27 States have call centers. Implemented Recovery
       Act provisions on time to: increase benefits; eliminate time limits for Able Bodied Adults without
       Children and provide nearly $300 million in 100 percent State Administrative Expense funding to
       State agencies in response to the economic downturn.
•      Provided numerous strategies to help States manage workload as a result of increasing participation
       and decreasing State resources due to the economic downturn, including a tool to identify workload
       management strategies.



                                                                Page 7 of 49
                               FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                              MANAGEMENT DISCUSSION AND ANALYSIS




USDA also conducts studies to measure the number of people eligible for the program, in order to
determine the rate at which eligible people are participating. The latest study shows that in 2007, 66
percent of all who were eligible for SNAP participated, reflecting an increase in eligible individuals that
was greater than the increase in participants. While the number of participants increased by 2 percent,
the number of eligible’s increased by 4 percent. Also in 2007, participants received 81 percent of all
benefits available if every eligible person participated – an indicator that the program is effectively
reaching those most in need.

National School Lunch Program—NSLP participation levels reached 31.6 million in FY 2009, up slightly
from FY 2008 and continuing the trend of increases in recent years. NSLP provides nutritious meals to
millions of children at school; over 100,000 schools and residential child care institutions (RCCIs)
operated the program in FY 2009.

School Breakfast Program—SBP participation levels reached 11 million in FY 2009, continuing a trend of
increases over the last several years. SBP makes healthy, nutritious meals available to millions of children
at the start of each school day. More than 85,000 institutions operated the program in FY 2008. USDA
continued to support and encourage SBP participation in FY 2009 by:
Promoting SBP through such activities as School Breakfast Week, highlighting the availability of the
     program through events, posters and student activities that show the importance of a good
     breakfast—either at home or served through the program—in being ready for school;
Working with various organizations and partners to help develop strategies for program expansion; and
Developing School Breakfast outreach materials for schools and parents.

In addition to the increase in the number of participating children, trend data indicate that the proportion of
all children enrolled in schools who participate in SBP has risen slowly but steadily in recent years. This
growth reflects USDA’s continuing efforts to encourage schools to operate the program.

Women, Infants and Children (WIC)—In FY 2009, approximately 9.3 million participants received WIC
benefits. USDA addresses the health and nutritional needs of, at risk, low-income pregnant,
breastfeeding and postpartum women, infants and children up to 5 years of age with supplemental food
packages, nutrition education and health and social services referrals. USDA continued to support and
encourage WIC Program participation, and improve benefits and services, in FY 2009 by:

•      Maintaining the Administration’s commitment to ensure adequate funding to support participation by
       all those eligible people who seek services.
•      Completing an historic update to the WIC food package – the first major changes to the WIC food
       packages since 1980. These new packages will be aligned with the 2005 Dietary Guidelines for
       Americans and infant feeding practice guidelines of the American Academy of Pediatrics – important
       steps in keeping the program optimally aligned to meet today’s nutrition needs.

Exhibit 2:       Trends in Improving Access to Nutritious Food (2009 from 2011 Dept. Estimates; 2008 from 09/30/09 Key Data)

                                                                                      Fiscal Year
                             Trends                               2005      2006        2007      2008             2009
    5.1.1    Improve Access to Nutritious Food:
                Supplemental Nutrition Assistance Program
                                                                  25.7      26.7         26.5         28.4          33.9
             Avg. Monthly Participation (mil)
                National School Lunch Program Avg. Daily
                                                                  29.6      30.1         30.5         31.0          31.6
             Participation (mil)
                School Breakfast Program Avg. Daily
                                                                   9.3       9.8         10.2         10.6          11.0
             Participation (mil)
                 WIC Program Monthly Participation (mil)          8.0       8.1          8.3          8.7          9.3



                                                             Page 8 of 49
                       FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                    MANAGEMENT DISCUSSION AND ANALYSIS




OBJECTIVE 5.2: PROMOTE HEALTHIER EATING HABITS AND LIFESTYLES
Overview

Healthy eating and physical activity practices are vital to reducing the risk of death or disability from a
wide range of chronic diet-related illnesses. USDA uses Federal nutrition policy and nutrition education,
both for the general public and those served by the nutrition assistance programs, to provide scientifically
based information about healthful diets and lifestyles.

The Dietary Guidelines for Americans, developed jointly by USDA’s Center for Nutrition Policy and
Promotion and the Department of Health and Human Services, provide advice about food choices that
promote health and prevent disease. And CNPP’s MyPyramid food guidance system provides the
educational tools to help Americans take the necessary “Steps to a Healthier You.” A range of cutting-
edge information tools, many available on the web, offer a personalized eating plan with the foods and
amounts that are right for a given individual.

                          KEY OUTCOME
                              Promote More Healthful Eating and Physical
                                      Activity across the Nation

The Department will continue promoting diets and behaviors as a vital public-health issue. The Dietary
Guidelines for Americans is the cornerstone of Federal nutrition guidance. USDA uses the 2005 Dietary
Guidelines and MyPyramid, the Guidelines’ educational tool, to continue its leadership role of providing
advice people in the U.S. can follow to improve overall health through proper nutrition. USDA uses
partnerships and “information multipliers” – such as shopkeepers who post public service messages in
their shops, or school teachers who teach their students about nutrition – to maximize the reach and
impact of its interventions, both within Federal nutrition-assistance programs and with the general public.

Challenges for the Future

While USDA’s goal to address and prevent obesity begins with understanding what constitutes a healthy
diet and the appropriate balance of exercise, success requires individuals to change their diets by
modifying their eating behavior. Crafting more effective messages and nutrition education programs to
help people make better food choices requires understanding their current choices and the relationships
between these choices and their attitudes, knowledge and awareness of diet/health links. The data that
can address this information gap, however, are limited.

The ability of existing nutrition guidance and promotional materials to achieve behavior change remains
challenging because of the limited resources available for nutrition promotion relative to other messages,
products and practices in the food marketplace. Additionally, physical activity and other lifestyle issues
significantly impact body weight and health.

USDA tracks its annual performance in promoting healthful eating and physical activity by monitoring its
annual distribution of nutrition education materials. Over the longer term, USDA assesses the effect of
these efforts with the CNPP-developed Healthy Eating Index (HEI), a measure of diet quality that
assesses conformance to Federal dietary guidance and is based on nutrition surveillance data.




                                                 Page 9 of 49
                               FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                               MANAGEMENT DISCUSSION AND ANALYSIS




Analysis of Results

To meet the needs of the general population, USDA continued its leadership role in the promotion of
nutrition guidance through educational tools designed to motivate people to live healthier:

Usage level of nutrition guidance tools was substantial, with more than 3 billion pieces of nutrition
guidance materials distributed via the Web and print materials.
USDA continued its collaborative effort to magnify the communication of dietary and physical activity
    guidance messages. The Partnering with MyPyramid, with over 140 members, showcases the role
    of various industries and others (e.g., youth groups) as partners to government in encouraging
    healthier eating and physical activity behaviors among families. The Partnership is designed to
    empower nutrition gatekeepers by providing easy to apply guidance for modeling a healthy lifestyle
    and by providing information to help them make healthy food choices for themselves and their
    families where they prepare foods, work, play, and purchase foods.

The MyPyramid for Preschoolers is the newest educational tool at www.MyPyramid.gov. The new tool is
   designed to help parents create a customized eating plan for their preschooler and encourages
   parents to explore ways to help their preschooler (1) grow up healthy, (2) develop healthy eating
   habits, (3) try new foods, (4) play actively every day, and (4) follow food safety rules. Sample meals
   and snack patterns are designed to help parents translate MyPyramid Plan daily amounts into
   individual meals and snacks, and ideas are offered for having a preschooler help the food preparer in
   the kitchen—a good way to encourage a child to try new foods..

Exhibit 3:   Promoting Healthier Eating Habits and Lifestyles
                                                                                            Fiscal Year 2009
        Annual Performance Goals and Indicators                                      Target          Actual                       Result
       5.2.1    Application and usage level of nutrition guidance
                                                                                     3.0 billion                 3.5 billion      Exceeded
                tools (pieces of nutrition guidance distributed)


Exhibit 4:     Trends to Promote Healthier Eating Habits and Lifestyles
                                                                                               Fiscal Year
                             Trends                                 2005          2006            2007     2008                    2009
     5.2.1     Application and usage level of nutrition
               guidance tools (billions of pieces of nutrition       N/A         1.5 billion       2.6 billion      3.2 billion   3.5 billion
               guidance distributed)




                                                                 Page 10 of 49
                       FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                   MANAGEMENT DISCUSSION AND ANALYSIS




OBJECTIVE 5.3: IMPROVE NUTRITION ASSISTANCE PROGRAM MANAGEMENT
AND CUSTOMER SERVICE

Overview

USDA is committed to ensuring that nutrition-assistance programs serve those in need at the lowest
possible costs and offer a high level of customer service. Managing Federal funds for nutrition assistance
effectively, including prevention of program error and fraud, is a key component of the President’s
Management Agenda. The Department focused on maintaining strong performance in the food stamp
payment-accuracy rate as its key performance goal in this area.

                              KEY OUTCOME
                                 Maintain a High Level of Integrity in the
                                     Nutrition Assistance Programs

Challenges for the Future

Some improper payment risks are inherent to the legislatively mandated program structure. This structure
is intended and designed to be easily accessible to people in special circumstances and settings. USDA
must shape its management approach in light of the need to make services convenient and accessible to
participants. State and local Governments also bear direct responsibility for delivering the programs.
Thus, the Department must work with these groups to address improper payment problems through
monitoring and technical assistance. This approach requires adequate numbers of trained staff supported
by a modernized information technology infrastructure to ensure full compliance with national program
standards.

Despite this strategy, two significant challenges will impact future success. Congressional action has
changed the quality control process, lowering the risk of penalties for poor State agency performance.
However, State agencies have, for the most part, risen to the challenge and continue to achieve a high
level of payment accuracy. Additionally, State budgets have been and will continue to be extremely tight.
This factor could hurt State performance in payment-accuracy. USDA will continue to provide technical
assistance and support to maintain payment accuracy in the context of this changing program
environment.

Analysis of Results
The FY 2009 SNAP Payment Accuracy Rate will become available in June 2010. It will be reported in the
FY 2010 Performance and Accountability Report.

While 2009 data are not yet available, SNAP payment accuracy reached 94.99 percent in 2008, a record-
high level reflecting excellent performance by State agencies in administering the program. This
combined rate reflects 4.01 percent in overpayments, and 1.00 percent in underpayments, for a total of
5.01 in erroneous payments.

Thirty-five States had a payment accuracy rate greater than 94 percent, including 15 States with rates
greater than 96 percent.

In June, FNS awarded $30 million in high performance bonus to states for excellence and improvements
in administering benefits. Of that $30 million, FNS awarded $24 million to the 10 States with the best and
most improved payment accuracy rate, and $6 million to the 6 States with the best and most improved
negative error rate.


                                                Page 11 of 49
                           FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                        MANAGEMENT DISCUSSION AND ANALYSIS




USDA’s close working relationship with its State partners during the last several years, along with
program changes to simplify rules and reduce the potential for error, has resulted in consistent increases
in food stamp payment accuracy. Such USDA efforts as an enhanced Partner Web (an Intranet for State
SNAP agencies) and the National Payment Accuracy Work Group (consisting of representatives from
USDA headquarters and regional offices) contributed significantly to this success by making timely and
useful payment accuracy-related information, tools, and best practices available across the country. FNS
worked with States on further streamlining such as the Farm Bill option to extend simplified reporting to
elderly and disabled households.

Additionally, the Department continued to use an early detection system to target States that may be
experiencing a higher incidence of errors based on preliminary quality control (QC) data. Actions then are
taken by regional offices to address these situations in the individual States.

Exhibit 5:    Increase Efficiency in Food Management
                                                                                  Fiscal Year 2008
             Annual Performance Goals and Indicators                       Target       Actual            Result
    5.3.1    Improve SNAP payment accuracy rate

                Increase SNAP Payment Accuracy Rate                           94.3%           94.99%     Exceeded


Exhibit 6:    Trends in Increased Efficiency in Food Management
                                                                                 Fiscal Year
                         Trends                           2005         2006         2007     2008          2009
     5.3.1    Increase SNAP Payment Accuracy Rate.        94.1%        94.0%           94.4%     94.99%     N/A




                                                       Page 12 of 49
                         FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                       MANAGEMENT DISCUSSION AND ANALYSIS




SECTION 3. ANALYSIS OF SYSTEMS, CONTROLS, AND
LEGAL COMPLIANCE
The information in this section is consistent with the findings of the USDA OIG’s FY 2009 financial statements
audit report.

Federal Managers’ Financial Integrity Act (FMFIA) Assurance
Management is responsible for developing and maintaining internal controls to ensure the effectiveness of
operations, reliability of reporting, compliance with applicable laws and regulations and safeguarding of assets.
Internal control encompasses accounting and administrative controls. Such controls include program, operational
and administrative areas as well as accounting and financial management.

FNS has conducted its assessment of internal control and financial systems pursuant to Sections 2 and 4 of FMFIA,
for the period ending September 30, 2009. Based on the results of this evaluation, FNS can provide reasonable
assurance that internal controls are operating effectively. For FY 2008, FNS had no existing material weaknesses or
significant deficiencies on which to report. No new material weaknesses or significant deficiencies were identified
for FY 2009.



Federal Financial Management Improvement Act (FFMIA)
Assurance
FNS has evaluated its financial management systems under FFMIA for the period ended September 30, 2009.
Based on the result of our evaluation, the agency is in substantial compliance with the FFMIA for the following
sections:

         1.       Federal Financial Management System Requirements,
         2.       Applicable Federal Accounting Standards,
         3.       Standard General Ledger at the Transaction Level, and
         4.       Information Security, Policies, Procedures, and Practices

FNS has no areas of substantial non-compliance.



Assurance for Internal Control over Financial Reporting
FNS conducted its assessment of the effectiveness of internal control over financial reporting as of June 30, 2009, in
accordance with USDA’s Implementation Guide and as required by the Office of Management and Budget Circular
A-123, Appendix A.

This assessment included an evaluation of entity level controls, risk assessments, process descriptions and
flowcharts, documentation of key controls, an assessment of the design of key controls, tests of effectiveness of
properly designed controls, summary of deficiencies and the development of corrective action plans for control
deficiencies.

Although no new material weaknesses were identified, FNS did identify one control deficiency that is part of a
Department-wide material weakness on Unliquidated Obligations. In addition, seven significant deficiencies related
to Agency financial management systems were identified.



                                                     Page 13 of 49
                         FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                       MANAGEMENT DISCUSSION AND ANALYSIS




While FNS can currently provide reasonable assurance relating to internal controls, financial reporting and financial
systems for FY 2009, we have identified the following areas of concern that will require continued vigilance and
efforts relating to the operations of the Agency.

         •   USDA Data Center Consolidation Initiative – Without adequate funding, FNS will not be able to
             accomplish this initiative. A funding request for this project submitted for inclusion in the President’s
             FY 2009 Budget was denied by the Department. The reticence of USDA to pursue a comprehensive,
             coordinated resource strategy, including seeking appropriations, has significantly hampered our ability
             to implement this and other Department-wide infrastructure initiatives.

         •   New System Implementation – FNS and its partners are in planning and early implementation stages
             for several major system transitions including: web-based supply chain management (WBSCM),
             administrative Financial Management Modernization Initiative (FMMI), program FMMI and
             Supplemental Nutrition Assistance Program Account Management Agent (SNAP-AMA). Managing
             the deployment of these systems, which is projected to occur over the next three years, poses
             significant risk for the Agency. If some of these outdated systems fail, or if the implementation of the
             new systems falters, the impact will be felt not only at FNS but at the Departmental level. As an
             example, our Processed Commodity Inventory Management System (PCIMS) is being converted to
             WBSCM. Failure to get our State partners up and running with WBSCM may ultimately result in
             commodity benefits not being delivered to program recipients.




OIG Audit Handling Process and Performance

USDA’s Office of the Inspector General (OIG) performs audits of FNS programs, systems and operations. The
results of this work are reports detailing, at a minimum, what was examined, findings that should be addressed and
recommendations for changes/improvements. Upon release of each final report, FNS submits to OIG a written
corrective action plan listing actions planned and dates by which these actions will occur. Management decision is
reached when OIG accepts FNS’s proposed corrective actions.

Upon reaching management decision, FNS’s Financial Management organization oversees follow-up activities to
assure that planned actions for each recommendation are implemented and completed. As this occurs, FNS notifies
the Department’s Office of the Chief Financial Officer (OCFO) and requests concurrence that all actions described
in the management decision agreement have occurred. Final action is achieved for each finding/recommendation
when all actions necessary to fulfill the management decision agreement have been performed.

Delays in reaching Final Action status most often occur for two categories of reasons:

    o    The amount of time needed to complete certain activities cannot be accurately estimated. Examples of these
         are:
         • Specific legislation, policy or guidance needs to be developed;
         • An investigation, negotiation, or administrative appeal action must be completed;
         • An automated system needs to be developed, implemented, or enhanced;
         • The results of additional monitoring or program review activity must be completed;
         • Disallowed costs must be collected;
         • Legal advice or opinion from the Office of General Counsel is needed; or
         • Certain external (state) or administrative actions must occur.

    o    Changes that could not be anticipated at the time management decision was reached:


                                                    Page 14 of 49
                        FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                     MANAGEMENT DISCUSSION AND ANALYSIS




        •    A change must be made to the management decision agreement. For example, the agreed upon
             management decision calls on the Agency to publish a regulation, but Congress initiates a moratorium
             on regulations.
        •    Additional information, explanation, advice or action from OIG is needed.

USDA agencies submit quarterly progress reports to OCFO for all audits that remain open more than one year past
the management decision date. These interim reports show incremental progress toward completion of planned
actions, changes in planned actions, actual or revised completion dates, and explanations for revised dates.




                                                  Page 15 of 49
                         FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                       MANAGEMENT DISCUSSION AND ANALYSIS




              Audits Without Final Action More Than One Year Past the Management Decision Date
                        Date                                   Completion Date      Reason for Lack of Final
 Audit Number                               Audit Title
                      Issued                                   for Actions (est)            Action
                                  SNAP Disqualified Recipient                     Awaiting publication of
27601-3-CH            3-22-96                                        6-30-10
                                  System                                          regulations
                                                                                  Awaiting collection of
27010-19-SF          11-18-99     Smart Start, Inc.                  9-30-10
                                                                                  disallowed costs
                                                                                  Pending collection
27010-3-KC            3-22-00     CACFP-Wildwood                    10-31-11
                                                                                  (repayment plan)
                                                                                  Agency requesting final
27010-6-KC           11-21-01     CACFP Wildwood – Phase II         12-31-09
                                                                                  action
                                  Monitoring of CACFP                             Awaiting collection of
27601-18-CH          10-28-05                                         3-1-10
                                  Providers in Minnesota                          disallowed costs
                                  CACFP Supper Meals                              Awaiting publication of
27601-35-CH           7-14-06                                        3-31-10
                                  Served in Schools                               regulations
                                  SSNAP California and                            Pending legal action on
27099-34-SF           8-17-07                                        6-30-10
                                  Nevada                                          complaint
                                  Disaster Supplemental
                                  Nutrition Assistance                            Awaiting publication of
27099-49-TE            9-4-07                                       11-30-11
                                  Program for Hurricanes                          regulations
                                  Katrina and Rita
                                  SSNAP Operated by the                           Awaiting collection of
27099-63-AT           3-31-08                                        6-30-10
                                  State of Georgia                                disallowed costs
                                  Application Control Review
                                                                                  Agency requesting final
27501-2-HY            3-31-08     of FNS’s Store Tracking and        9-30-09
                                                                                  action
                                  Redemption System II
                                  Compliance With Improper
27601-32-CH           9-28-04     Payments Reporting                 6-30-11      Awaiting OMB clearance
                                  Requirements


In FY 2009, audit number 27601-27-CH, NSLP Food Service Management Companies, and audit number 27099-
31-SF, Summer Food Service Program-Nevada was closed. The Inspector General Act Amendments of 1988
requires the accompanying data for an annual report on the status of audits.




                                                     Page 16 of 49
                         FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                       MANAGEMENT DISCUSSION AND ANALYSIS




SECTION 4. IMPROPER PAYMENTS INFORMATION ACT
(IPIA)
The Improper Payments Information Act (IPIA) requires all agencies to 1) review all programs and activities, 2)
identify those that may be susceptible to significant improper payments, 3) estimate the annual amount of improper
payments for each program and activity and 4) report results.

Appendix C of OMB Circular A-123 defines significant improper payments as an annual amount that exceeds both
2.5% of program payments and $10,000,000. For programs/payments that fit this description, agencies must:

    •   Measure and reduce the improper payments,
    •   Identify the causes and take action to correct them,
    •   Implement necessary infrastructure to support activities,
    •   Develop proposals to obtain necessary infrastructure, and
    •   Hold managers accountable for results.

FNS assessed all food assistance programs as well as its Nutrition Programs Administration (NPA) funding, which
support FNS’s Federal administrative operations. Assessments were conducted in conjunction with USDA-
coordinated procedures. FNS, with OMB concurrence, has designated five programs as susceptible to significant
improper payments: the Supplemental Nutrition Assistance Program (SNAP), the Special Supplemental Nutrition
Program for Women, Infants and Children (WIC), the Child and Adult Care Food Program (CACFP), the National
School Lunch Program (NSLP) and the School Breakfast Program (SBP). Improper payment measurement
activities for each are described briefly below.

    •   The Supplemental Nutrition Assistance Program (SNAP – formerly known as the Food Stamp
        Program), sampling and erroneous payment measurement processes, the accepted hallmark of the IPIA
        environment, has been a legislative mandate for more than 30 years. This process compares the certification
        criteria upon which a household’s benefit issuance is determined with the household’s circumstances at the
        time of issuance. All case results are accumulated by state. The state results are validated and the validated
        results are combined into a national cumulative (overpayments plus underpayments) error rate. No other
        payment lifecycle steps are included. Improper payment measurement activities predate the passage of the
        IPIA and SNAP was immediately recognized as compliant with the intent of the law when it was passed.
        State agencies are required to establish and collect SNAP claims in accordance with the requirements found
        in the Program regulations. Debts that become delinquent are subsequently submitted by the State agencies
        for collection through the Treasury Offset Program. In past years, FNS has used target measures to gauge
        the success of recipient claims activity. While claims collection by States is ongoing, the establishment of
        specific target amounts or rates would not be useful, since collections are to a large extent tied to the ability
        of each individual State to pursue and collect erroneous payments. To complicate matters, State error rates
        fluctuate over time with downturns (or upswings) in the economy and changes in numbers of the recipient
        population. Establishing targets for recovery amounts is not feasible because it does not anticipate such
        fluctuations, and does not take into account the variability of State collection systems.

    •   In the Special Supplemental Nutrition Program for Women, Infants and Children (WIC), work is
        underway to report improper payment error rates on two segments of the program: certification error and
        vendor error.

             o   FNS first reported a vendor improper payment error rate in FY 2006. Over and under payment
                 rates for FY 2005 were developed through a nationally representative study of a probability
                 sample of WIC vendors. Data from this “bookend” study is then used in conjunction with
                 information on vendor investigations by State WIC Agencies to prepare a statistically estimated
                 improper payment amount for each subsequent year. Until the next bookend study, the 2005 rates
                 will be aged using data generated by State undercover investigators who attempt to make WIC
                 purchases using valid WIC food instruments. The charges submitted by each sampled vendor are

                                                     Page 17 of 49
                         FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                      MANAGEMENT DISCUSSION AND ANALYSIS




                 compared to the undercover purchase activity to estimate overcharging, and other sanctionable
                 violations. Case results are accumulated by State and used to age the estimates.

             o   Certification rate: The contractor will interview WIC households and compare the certification
                 criteria upon which a household’s benefit issuance was determined with the household’s
                 circumstances at the time of issuance. This data will be accumulated nationally. Delays in the
                 national representative study will result in data collection being delayed until FY 2009. A
                 preliminary estimate of erroneous payments associated with certification actions will be available
                 in 2011.

Current statutory authority allows USDA to recover improper payments from state agencies when identified through
reviews, audits or other operational oversight activities. This authority does not support collection of improper
payments identified on the basis of a statistical sample or estimation procedure, as is used to develop the national
estimates of improper payments reported here.

    •   The Child and Adult Care Food Program (CACFP) has three distinct parts: Child Care Centers, Adult
        Day Care facilities and Family Day Care Homes (FDCHs). Overall program funding is provided to state
        agencies which provide funds to sponsoring organizations to pay for claims for reimbursable meals served
        at provider sites. Sites can be as large as an institution or as small as a household. Each part of CACFP has
        its own reimbursement structure.

        Payments and claim information are transferred among FNS, State agencies, program sponsors and
        program sites; each such transaction represents a risk for improper payment. Because requirements vary
        significantly for each different type of program sponsor and site, a full and rigorous assessment of the rate
        of improper payments is extremely complex.

        The original plan was to develop a program-wide study which would examine reimbursements for meals
        served and develop program error measurements that complied with the requirements of the IPIA. Because
        of the complexities of the program, FNS estimated that it would cost $20 million to measure improper
        payments at the precision required by IPIA. This amount has not been provided.

        FNS has identified the FDCH component of this program as potentially high risk, and measures error in
        this part of the program in lieu of the unfunded comprehensive measure. FDCHs participate in CACFP
        through public or private nonprofit sponsoring organizations. FDCH improper payments are most likely
        caused by sponsor error in determining a participating home’s reimbursement tier (tiering error) or by
        FDCH error in reporting the number of meals which are eligible for reimbursement (claiming error).

        Two activities are underway which provide information on improper payments in the FDCH
        component of CACFP. A third activity is being pilot tested.

             o   CCAP – In the Spring of 2004, FNS began the Child Care Assessment Project (CCAP).
                 This project was designed to measure the effectiveness of efforts to improve the integrity
                 of CACFP family day care homes and provide information from a broadly representative
                 national sample of sponsors and providers. Data were collected by the Food and
                 Nutrition Service (FNS), in cooperation with State agencies and sponsors administering
                 the Child and Adult Care Food Program, during the period 2004-2007. The CCAP
                 process was designed to measure whether the two interim management improvement
                 rules issued by FNS in 2002 and 2004 had been properly implemented, and whether the
                 rules had effectively addressed the serious program management and integrity problems
                 that had been uncovered in the 1990s. In the three and one-half years during which
                 assessments were conducted, FNS gathered the program records of 58 family day care
                 home (FDCH) sponsors and over 3,000 of their providers. A final report was issued in
                 July 2009. Overall, the findings indicated that the serious problems which had prompted
                 the previous legislative and regulatory action were not common in 2004-2007. However,

                                                    Page 18 of 49
                    FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                  MANAGEMENT DISCUSSION AND ANALYSIS




             some concerns were identified, including the accuracy of recordkeeping by family day
             care home providers and the use of the serious deficiency process by program sponsors.
             FNS is currently developing an action plan to address those CCAP findings which
             suggest a need for additional measures to improve Program administration in the FDCH
             component of CACFP at the local, State, and Federal levels. This action plan will take
             into account the very real challenges of providing Federally-supported nutrition
             assistance in approximately 140,000 private residences across the country. Therefore,
             any changes to Program procedures and requirements recommended in the action plan
             will consider this unique aspect of administering the CACFP. Managers at the Federal,
             State and local levels must be challenged to be better stewards of the public funds that
             support the CACFP’s important public purposes.

        o    Sponsor error – FNS has developed an annual sponsor tiering error measure and tested
             it. CACFP sponsors are responsible for determining whether family day care homes
             receive meal reimbursement at the higher rate (Tier 1) or lower rate (Tier 2). In FY 2005,
             the first annual data collection began to determine a nationally representative sponsor
             tiering determination error rate. Results for FY2005, FY2006 and FY2007 have been
             reported. Preliminary FY 2008 estimates will be reported in June 2010 with final
             estimates available in August 2010.

        o    Claiming error - In its 2006 measurement plan, FNS proposed to test the feasibility of estimating
             the risk of claiming errors. FNS proposed to select a random sample of sponsoring organizations
             and, from each, use a random selection of the sponsor’s monitoring visits of FDCHs. FNS would
             compare the number of meals claimed with the number of children observed at the time of the
             visit. If feasible to conduct, it was assumed that this comparison would provide an estimate of the
             risk of overpayment.

             FNS staff collected data in 11 family day sponsors around the country, gathering a random sample
             of 268 FDCH sponsor monitoring visit records. For each, FNS gathered the FDCH’s meal claim
             data for the month of the monitoring visit and the month before. Results were analyzed and
             released in a report in May 2009; FNS found that the tested method does not provide a reliable
             estimate of family day care meal claiming error.

              FNS also contracted with MPR to develop and pilot test additional alternatives to determine the
             feasibility of estimating the risk of claiming error by methods such as direct observation of FDCHs
             or by contacting parents to determine if children were really present at a FDCH when claimed.
             This test found that parent recall surveys are worthy of further testing as the method most likely to
             yield the needed information on improper payments related to meal claiming errors. A report on
             the feasibility study was released in September 2009.

    Improper payments identified through the course of a review, audit, or through other operational oversight
    activities can be recovered either through direct billing or through an offset of future program payments
    earned. Current statutes only provide authority to recover improper payments identified through reviews,
    audits or other operational oversight activity. Program regulations allow States to waive claims against a
    single institution for improper payments of up to $600 in a single fiscal year. CACFP would need new
    statutory authority to pursue collection of improper payments identified on the basis of a statistical sample
    or estimation procedure.

•   The National School Lunch Program and School Breakfast Program do not have a sampling and
    erroneous payment measurement process comparable to SNAP. Instead, FNS must rely on nationally
    representative studies to produce estimates of erroneous payments. An erroneous payments rate for School
    Year 2005-2006 based on current study results was reported in the FY 2007 Performance and
    Accountability Report, Appendix B. Because of the scope and cost of this study, it is more prudent to
    repeat it on a multi-year cycle. Contingent upon available funding, FNS will produce an erroneous

                                                Page 19 of 49
                         FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                      MANAGEMENT DISCUSSION AND ANALYSIS




        payment measurement through this type of study every five years. Also, as part of this same project, FNS
        developed a methodology that uses data available from other sources to estimate erroneous payments due to
        certification error on an annual basis. Current statutory authority allows USDA to recover improper
        payments from state agencies when identified through review, audits or other operational oversight
        activities. Current statutory authority does not support collection of improper payments identified on the
        basis of a statistical sample or estimation procedure, as is used to develop the national estimates of
        improper payments reported here.

        Nationally-Representative Study: The sampling plan for the large national study of erroneous payments in
        NSLP and SBP called for the selection of a national probability sample of School Food Authorities (SFAs),
        schools, certified students and households that applied and were denied NSLP and SBP benefits in SY
        2005-06. A stratified random sample of 78 unique public SFAs was selected in the first stage of sampling.
        Stratification variables included geographic region, prevalence of schools with SBP and those using
        Provision 2/3, and a poverty indicator. For SFAs that do not have Provision 2/3 schools, three schools, on
        average, were selected for inclusion in the studying the second stage of sampling. Schools were stratified
        into two groups: (1) elementary schools and (2) middle- and high-schools. The school sample included
        both public and private schools. A total of 264 schools participated in the study (216 non-Provision 2/3
        schools, 24 Provision 2/3 schools in their base year, and 24 Provision 2/3 schools not in their base year).
        For the third stage of sampling, samples of households were selected in 240 of these schools to yield
        completed interviews for about 3,000 students certified for free and reduced-price meals and about 400
        denied applicant households. The sample of approved and denied applicant households was augmented by
        sampling of applications from Provision 2/3 schools in which household surveys were not conducted.
        Application reviews of about 6,800 students approved for free and reduced-price meals and over 1,000
        denied applicants were conducted to estimate the case error rate due to administrative error. All schools
        selected for application reviews would also include data collection for counting and claiming errors. Field
        staff observed approximately 100 lunch transactions at each of 245 schools participating in the NSLP and
        50 breakfast transactions at each of 218 schools participating in the SBP on randomly selected school days.
        Cashier error was estimated using information from these meal transactions. Data on school-recorded daily
        meal totals across all points of sale, aggregated meal counts reported to the district, and total meals
        submitted to the State Agency for reimbursement were examined to determine claiming errors.

        Interim Estimation: To update the erroneous payment rate estimates in NSLP without having to conduct
        another full round of primary data collection, a series of econometric models were developed that captured
        the relationship between characteristics of the districts that participated in the APEC study and their
        estimated rates of certification error. Estimated coefficients from these models were used in conjunction
        with updated values of district characteristics obtained from the School Food Authorities Verification
        Summary Reports (Form FNS-742) to predict certification error. Certification error rates were then
        translated into amounts and rates of erroneous payments in each district. Aggregating the district level
        estimates produced a national measure of predicted erroneous payments.


Additional information on FNS’ Improper Payments Information Act (IPIA) activities can be found in the USDA
Performance and Accountability Report.

The tables below summarize the results of measurement activities for FNS programs identified as subject to a
significant risk of improper payments. The first table shows improper payment rates for the last two years and the
second table reflects future reduction targets. All results reported each year represent measures of outlays and
program activity for the previous year.




                                                    Page 20 of 49
                              FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                            MANAGEMENT DISCUSSION AND ANALYSIS




            Preliminary Data as of 7/31/09 – FNS Measures for IPIA Reporting
                      2008 Performance and Accountability Report
                                 Improper Payment Sampling Results ($ in millions)
                                                            Results                        Results
                         Program                      Reported in FY 2008            Reported in FY 2009
                                                   Outlays    IP%         IP$      Outlays   IP%       IP$
  Supplemental Nutrition Assistance Program, FNS             30,376          5.64%        1,713      34,611       5.01%      1,733
  National School Lunch Program, FNS                          8,756         16.55%        1,449       9,436      16.44%      1,551
  School Breakfast Program, FNS                               2,150         25.02%          538       2,273      24.62%        560
  Women, Infants and Children, FNS
    Total Program                                             3,950            N/A         N/A        4,483         N/A       N/A
    Certification Error Component                             3,950            N/A         N/A        4,483         N/A       N/A
    Vendor Error Component                                    3,950         1.24%           49        4,483      1.27%         57
  Child and Adult Care Food Program, FNS
    Total Program                                             2,311            N/A         N/A        2,214         N/A       N/A
    FDC Homes – Tiering Decisions                               728         1.56%          11.4         713      2.07%        14.7
    FDC Homes – Meal Claims                                     728            N/A         N/A          713         N/A       N/A




                  Detailed Breakout of Improper Payment Rates reported in FY 2009 ($ in millions)
                                              Total                      Over-          Under-
                                                          IP%                                                              Other
                                            Payments                  payments         payments
 Supplemental Nutrition Assistance Program,
 FNS                                                34,611       5.01%                 4.01%             1.00%              N/A
 National School Lunch Program, FNS                  9,436       16.44%                12.47%            3.96%              N/A
 School Breakfast Program, FNS                       2,273       24.62%                21.28%            3.35%              N/A
 Women, Infants and Children, FNS
   Vendor Error Component                            4,483        1.27%                0.81%             0.46%              N/A
 Child and Adult Care Food Program, FNS
   FDC Homes – Tiering                                713         2.07%                1.87%             0.2%               N/A




                                 Improper Payment Reduction Outlook ($ in millions)
                              FY 2009 Reporting           FY 2010 Reporting                             FY 2011 Reporting
      Program
                           Outlays    IP%       IP$  Outlays      IP%         IP$                    Outlays    IP%       IP$
Supplemental Nutrition
Assistance Program,
FNS                           33,866      5.64%     1,910        35,189        5.6%        1,970        35,483     5.4%        1,916
National School Lunch
Program, FNS                  10,215   15.97%       1,631        10,941       15.52%       1,698        11,370    15.52%       1,765
School Breakfast
Program, FNS                   2,589   23.81%         616         2,823       23.03%           650       2,959    22.28%           659
Women, Infants and
Children, FNS                  4,901      1.22%        60         5,265       1.02%             54       5,376     0.82%            44
Child and Adult Care
Food Program, FNS               758       2.02%      15.3             799     1.97%         15.7          816      1.92%          15.7




                                                         Page 21 of 49
                         FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                       MANAGEMENT DISCUSSION AND ANALYSIS




SECTION 5. LIMITATIONS OF FINANCIAL STATEMENTS
The principal financial statements have been prepared to report the financial position and results of operations of the
Food and Nutrition Services (FNS), an agency of the United States Department of Agriculture, pursuant to the
requirements of 31 U.S.C. 3515 (b). While the statements have been prepared from the books and records of FNS in
accordance with GAAP for Federal entities and the formats prescribed by OMB, the statements are in addition to the
financial reports used to monitor and control budgetary resources which are prepared from the same books and
records.

The statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity.




SECTION 6. FINANCIAL STATEMENTS HIGHLIGHTS AND
ANALYSIS


FNS’ FY 2009 financial statements reflect the nutrition assistance programs’ responsiveness to the Nations’
economic performance. By design, the level of activity within the nutrition assistance programs varies with the level
of need experiences by the populations we serve. A key determinant of this level of need is the condition of the
economy. In FY 2009 the economy performed weaker than was anticipated by the President’s FY 2009 budget
request. As a result, program participation and costs, as reflected in the financial statements are, on average, higher
than was anticipated.


In accordance with the US Standard General Ledger and the Treasury Financial Manual 1TFM 4700, in FY 2008
FNS clarified its reporting of the Grant Award (GAD) Accrual. FNS performed an analysis of the GAD Accrual
and determined that the GAD Accrual consist of Entitlement Benefits and Non Entitlement Benefits. For the FY
2009 Financial Statements FNS will report Entitlement Benefits as “Benefits Due and Payable” and report Non
Entitlement Benefits as “Other Liabilities” on the Balance Sheet and related footnotes. In addition, FNS will not
reflect these benefits as a portion of Accounts Payable on the Balance Sheet. The classification of these accruals
have no impact on the amounts reported for Total Liabilities.




                                                     Page 22 of 49
                          FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                      MANAGEMENT DISCUSSION AND ANALYSIS




Balance Sheet


                                         2009                              2008
                              Dollars (mill) Percent           Dollars (mill)   Percent
Fund Balance with Treasury
                                      20,820        96.44%              18,546         96.97%
Accounts Receivable                      324         1.50%                 261          1.36%
General PP&E                               4         0.02%                  10          0.05%
Other                                    441         2.04%                 309          1.62%
 Total Assets                         21,589       100.00%              19,126        100.00%
Accounts Payable                            4        0.02%                   3          0.02%
Employee Benefits                           6        0.03%                   7          0.04%
Benefits Due and Payable                3,120       14.45%               2,764         14.45%
Other Liabilities                       1,166        5.40%                 818          4.28%
 Total Liabilities                      4,296       19.90%               3,592         18.78%
Unexpended Appropriations
                                      17,008        78.78%              15,311         80.05%
Cumulative Results of
Operations                               285         1.32%                 223          1.17%
 Total Net Position                   17,293        80.10%              15,534         81.22%
Total Liabilities & Net
Position                              21,589          100%              19,126           100%



The Balance Sheet composition (comparative composition of account balances to the totals) remained substantially
the same in FY 2009 as the prior year. The vast majority of FNS assets are held in Fund Balance with Treasury
(FBWT) - approximately 96% and 97% in FY 2009 and FY 2008 respectively. This cash-like account largely
represents the aggregate amount of funds in the FNS accounts with the U.S. Treasury from which the agency is
authorized to make expenditures and pay liabilities. As financial statement Note 3 presents, a substantial portion of
the fund balance is unavailable as they are associated with either expired years or are contingency funds which were
not made available.

“Other assets” remained at levels consistent with the prior year. Accounts receivable levels also remained consistent
with the prior year.

Benefits Due and Payable represents the largest liability of the agency, typically representing amounts that are
currently payable to grantees on Entitlement Benefits Programs. The FY 2009 and 2008 Net Position of the agency
is concentrated in Unexpended Appropriations.




                                                    Page 23 of 49
                         FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                      MANAGEMENT DISCUSSION AND ANALYSIS




Statement of Net Cost

                                            2009                               2008
                                 Dollars (mill)  Percent           Dollars (mill)     Percent
Gross Cost                               79,430   100.05%                   60,552      100.05%
Less: Earned Revenue                       (42)     -0.05%                    (28)        -0.05%
Net Cost of Operations                   79,388   100.00%                   60,524      100.00%


The FNS mission addresses USDA Strategic Goal 5 “To Improve the Nation’s Nutrition and Health”. All program
costs are reported under that strategic goal. Gross Costs increased from $60,552 million in FY 2008 to $79,430
million in FY 2009, reflecting the overall impact of FNS programs’ actual participation levels and food costs.

As the chart above displays, Earned Revenue represents an extremely small offset to Gross Costs (less than one
percent), in both fiscal years. Earned revenue largely represents funds from the State Option Supplemental Nutrition
Assistance Program authorized under P.L. 105-18. States participating in this program (California, Wisconsin, and
Nebraska) reimburse FNS for benefits paid to legal immigrants who do not qualify for the Federal Supplemental
Nutrition Assistance Program to whom the States have “opted” to provide benefits. Additional earned revenue is
received from other Federal agencies for reimbursement of expenses related to information technology services and
facility-related services including WBSCM, Commodity Improvement Initiative and Whole Grain Study.

The Net Cost of Operations increased from $60,524 million in FY 2008 to $79,388 million in FY 2009.




                                                   Page 24 of 49
                        FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                     MANAGEMENT DISCUSSION AND ANALYSIS




Statement of Changes in Net Position


                                           2009                                2008
                                Dollars (mill)  Percent            Dollars (mill)     Percent
Cumulative Results of
Operations
Beginning Balance                           223                               202
Appropriations Used                      71,833       90.41%               53,513        88.39%
Transfers In(Out) without
Reimbursement                             6,588        8.29%                6,274        10.36%
Other Budgetary Financing
Sources                                       0       0.00%                     0         0.00%
Imputed Financing                         1,029       1.30%                   758         1.25%
  Total Financing Sources                79,450     100.00%                60,545       100.00%
Less: Net Cost of Operations             79,388                            60,524
Ending Balance                              285                               223
Net Change                                   62                                21

Unexpended Appropriations
Beginning Balance                        15,311                            15,822
Appropriations Received                  75,649                            53,839
Adjustments                             (2,119)                             (837)
Appropriations Used                    (71,833)                          (53,513)
Total: Financing Sources                  1,697                             (511)
Ending Balance                           17,008                            15,311

Total Net Position                       17,293                            15,534


The Statement of Changes in Net Position explains the changes in the two components of Net Position of the
Balance Sheet from year to year, the Cumulative Results of Operations and the Unexpended Appropriations.

The FY 2009 appropriations used was $71,833 million, increased $18,320 million from FY 2008, based on actual
participation levels and food costs.

Cumulative Results of Operations increased $62 million, from $223 million in FY 2008 to $285 million in FY 2009,
as the net cost of operations is less than the total financing sources. The proportional distribution of financing
sources among appropriations, transfers, and imputed financing remained relatively unchanged from FY 2008 to FY
2009. Transfers are largely made up a single large transfer made in the annual appropriations act from funds
available to the Secretary under Section 32 of the Act of 1935 for support of Child Nutrition programs.
Additionally, FNS received transfers from the Commodity Credit Corporation for the Senior Farmers Market
Program. Transfers represented approximately eight percent and ten percent of total financing sources in FY 2009
and FY 2008 respectively.

Unexpended Appropriations increased from $15,311 millon in FY 2008 to $17,008 million in FY 2009 as less
appropriations were expended than were received (net of adjustments). Adjustments increased from $837 million in
FY 2008 to $2,119 million in FY 2009 are due to cancellations of expired accounts.




                                                   Page 25 of 49
                         FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                      MANAGEMENT DISCUSSION AND ANALYSIS




Statement of Budgetary Resources

                                            2009                                2008
                                 Dollars (mill)  Percent            Dollars (mill)     Percent
Budgetary Resources
Beginning Unobligated
Balance                                   14,258       15.01%               14,892        19.89%
Recoveries                                   507        0.53%                  637         0.85%
Appropriations                            75,647       79.66%               53,835        71.89%
Collections                                   85        0.09%                   85         0.11%
Change in unfilled customer
orders                                         0        0.00%                    0         0.00%
Transfers                                  6,590        6.94%                6,277         8.38%
Less: Permanently Not
Available                                (2,119)       -2.23%                (838)        -1.12%
Total Budgetary Resources                 94,968      100.00%               74,888       100.00%

Status of Budgetary
Resources
Direct Obligations                        79,453       83.66%               60,602        80.92%
Reimbursable Obligations                      42        0.04%                   28         0.04%
Apportioned-Unobligated                    1,520        1.60%                  974         1.30%
Unobligated-Not Available                 13,953       14.69%               13,284        17.74%
Total: Status of Budgetary
Resources                                 94,968         100%               74,888          100%

Net Outlays                               77,844       81.97%               59,773        79.82%




The Statement of Budgetary Resources displays the source of all budgetary resources for the fiscal year as well as
the status of those resources as of the end of the fiscal year.

Appropriations were increased from $53,835 millions in FY 2008 to $75,647 millions in FY 2009. Total budgetary
resources were higher than prior year due to increase in Appropriations for the year. FNS had $94,968 million in
total budgetary resources during FY 2009, largely from appropriations received, but also from recoveries and
available unobligated balances from prior periods. In addition FNS has included in the FY 2009 financial
statements the ARRA supplemental appropriations used to stimulate the U.S. economy. The ARRA appropriations
for FY 2009 totaled $5.9 billion.

Permanently Not Available increased from $838 million in FY 2008 to $2,119 million in FY 2009 is due to
cancellations of expired accounts.

At fiscal year end 2009, most ($79,453) million or 84%) of those resources were obligated, though $1,520 million or
2% remained unobligated and available, and another $13,953 million (15%) was unobligated and not available
(including apportioned unavailable Contingency Reserve funds for WIC and SNAP). In FY 2009, Net Outlays
represented 82% of Total Budgetary Resources, compared to 80% in FY 2008.




                                                    Page 26 of 49
                    FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                       FINANCIAL STATEMENTS




                                  Food and Nutrition Service

                             CONSOLIDATED BALANCE SHEET
                         As of September 30, 2009 (CY) and 2008 (PY)
                                     (Dollars in Millions)

                                                FY 2009                     FY 2008
                                                 (CY)                        (PY)
Assets (Note 2):
   Intragovernmental:
            Fund Balance with
            Treasury                               $         20,820                   $   18,546
            Other (Note 6)                                      441                          309
   Total Intragovernmental                                   21,261                       18,855       18,85
   Accounts Receivable, net (Note 4)                            324                          261          26
   General Plant, Property, and
   Equipment, net (Note 5)                                       4                           10           1

   Other (Note 6)                                                 -   -                        -
Total Assets                                       $         21,589                   $   19,126   $   19,12

Liabilities (Note 7):
    Intragovernmental:
              Accounts Payable                      $            2                $           -
              Other (Note 8)                                    32                           37
    Total Intragovernmental                                     34                           37

   Accounts Payable                                              2                            3
   Federal Employee and Veterans
   Benefits                                                       6                            7
   Benefits Due and Payable                                   3,120                        2,764
   Other (Note 8)                                             1,134                          781
Total Liabilities                                             4,296                        3,592

Net Position:
   Unexpended Appropriations -
   Other Funds                                               17,008                       15,311
   Cumulative Results of Operations
   - Other Funds                                                285                          223
Total Net Position                                 $         17,293               $       15,534
Total Liabilities and Net Position                 $         21,589               $       19,126

               The accompanying notes are an integral part of these statements.




                                             Page 27 of 49
                     FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                        FINANCIAL STATEMENTS




                                  Food and Nutrition Service

                       CONSOLIDATED STATEMENTS OF NET COST
                 For the Years Ended September 30, 2009 (CY) and 2008 (PY)
                                     (Dollars in Millions)


                                                    FY 2009                       FY 2008
                                                     (CY)                          (PY)
Program Costs:
   Strategic Goal:
       Improve the Nation's Nutrition
       and Health:
            Gross Costs (Note 10)                             $   79,430               $ 60,552
            Less: Earned
            Revenue                                                  42                     28
            Net Program
            Costs                                                 79,388                60,524

Net Cost of Operations                                        $   79,388               $ 60,524



               The accompanying notes are an integral part of these statements.




                                              Page 28 of 49
                      FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                        FINANCIAL STATEMENTS




                                  Food and Nutrition Service

               CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION
                      As of September 30, 2009 (CY) and 2008 (PY)
                                  (Dollars in Millions)

                                                FY 2009                       FY 2008
                                                 (CY)                          (PY)
Cumulative Results of Operations:
Beginning Balance                                 $            223             $          202
Beginning Balance, as adjusted                                 223                        202

Budgetary Financing Sources:
  Appropriations Used                                    71,833                         53,513
  Transfers in/out without
  reimbursement                                           6,588                          6,274
  Other                                                       -                              -

Other Financing Sources (Non-
Exchange):
  Imputed Financing                                       1,029                           758

Total Financing Sources                                  79,450                         60,545
Less: Net Cost of Operations                             79,388                         60,524
Net Change                                                   62                             21

Cumulative Results of Operations                               285                        223

Unexpended Appropriations:
Beginning Balance                                        15,311                         15,822
Beginning Balance, as adjusted:                          15,311                         15,822

Budgetary Financing Sources:
   Appropriations Received                               75,647                       53,835
   Appropriations Transferred in/out                          2                            4
   Other Adjustments                                    (2,119)                        (837)
   Appropriations Used                                 (71,833)                     (53,513)
   Total Budgetary Financing Sources                      1,697                        (511)
Total Unexpended Appropriations                          17,008                       15,311

Net Position                                     $       17,293                $        15,534



                The accompanying notes are an integral part of these statements.




                                              Page 29 of 49
                      FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                          FINANCIAL STATEMENTS




                                      Food and Nutrition Service

                  COMBINED STATEMENTS OF BUDGETARY RESOURCES
                  For the years ended September 30, 2009 (CY) and 2008 (PY)

                                         (Dollars in Millions)
                                                                 FY 2009         FY 2008
                                                                  (CY)            (PY)
Budgetary Resources:
Unobligated balance, brought forward, October 1:                     $ 14,258        $ 14,892
Recoveries of prior year unpaid obligations                               507             637
Budget authority
  Appropriation                                                       75,647          53,835
  Spending authority from offsetting collections
       Earned
           Collected                                                       85              85
       Change in unfilled customer orders
           Advance received                                               (0)             (0)
           Without advance from Federal sources                           (0)             (0)
  Subtotal                                                            75,732          53,920
Nonexpenditure transfers, net, anticipated and
actual                                                                   6,590          6,277
Permanently not available                                              (2,119)          (838)
Total Budgetary Resources                                            $ 94,968        $ 74,888

Status of Budgetary Resources:
Obligations Incurred:
  Direct                                                             $ 79,453        $ 60,602
  Reimbursable                                                             42              28
  Subtotal                                                             79,495          60,630
Unobligated balance:
  Apportioned                                                           1,520             974
  Subtotal                                                              1,520             974
Unobligated balance not available                                      13,953          13,284
Total status of budgetary resources                                  $ 94,968        $ 74,888



Change in Obligated Balances:
Obligated balance, net
  Unpaid obligations, brought forward, October 1                     $ 4,288         $ 4,154
  Total unpaid obligated balance, net                                   4,288           4,154
Obligations incurred net (+/-)                                         79,495          60,630
Gross outlays                                                        (77,929)        (59,859)
Recoveries of prior year unpaid obligations, actual                     (507)           (637)
Change in uncollected customer payments from
Federal sources (+/-)                                                      (0)             (0)
Obligated balance, net, end of period
  Unpaid obligations                                                    5,347          4,288


                                                Page 30 of 49
                      FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                        FINANCIAL STATEMENTS




  Uncollected customer payments from Federal
  sources                                                              -                   -
  Total unpaid obligated balance, net, end of period               5,347               4,288

Net Outlays:
  Gross outlays                                                   77,929              59,859
  Offsetting Collections                                             (85)                (85)
  Distributed offsetting receipts                                     (0)                 (2)
  Net Outlays                                                   $ 77,844            $ 59,773



                 The accompanying notes are an integral part of these statements.




                                              Page 31 of 49
                           FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                       NOTES TO THE FINANCIAL STATMENTS




                                FOOD and NUTRITION SERVICE
                             NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in millions except as noted)



 Note 1. Summary of Significant Accounting Policies

A. Basis of Presentation

   These financial statements have been prepared to report significant assets, liabilities, net cost of
   operations, changes in net position, and budgetary resources for the Food and Nutrition Service
   (FNS), as required by the Chief Financial Officers Act of 1990 as amended and OMB Circular A-
   136 dated June 10, 2009. They have been prepared from the books and records of FNS in
   accordance with the Generally Accepted Accounting Principles (GAAP) hierarchy of accounting
   principles for the Federal Government. GAAP for Federal financial reporting entities recognizes
   the Federal Accounting Standards Advisory Board (FASAB) as the standard setting body.

   In accordance with the Office of Management and Budget and the Budget Execution of the
   American Recovery and Reinvestment Act (ARRA) of 2009 Appropriations, FNS has included in
   the FY 2009 financial statements the supplemental appropriations used to stimulate the U.S.
   economy. The ARRA appropriations for FY 2009 totaled $5.9 billion.


B. Reporting Entity

   FNS, including the Center for Nutrition Policy and Promotion (CNPP), is under the jurisdiction of
   the Under Secretary for Food and Nutrition Service of the United States Department of
   Agriculture. FNS is headed by an administrator with overall policy formulated in the FNS
   headquarters in Alexandria, Virginia, and implemented through seven regional offices and 67
   field offices, four Supplemental Nutrition Assistance Program (SNAP) compliance offices, one
   computer support center in Minneapolis, Minnesota. State departments of education have
   responsibility for food programs serving children in schools, child care centers, and summer
   recreation centers. State departments of health, welfare, and agriculture usually have
   responsibility for programs providing SNAP benefits or supplemental foods. For the FY 2009
   financial statement presentation, data classified as “Other” is primarily comprised of Nutrition
   Program Administration (NPA) appropriations. A detailed description of the FNS programs is
   contained in the Management Discussion & Analysis (MD&A).

C. Basis of Accounting

   FNS records transactions on an accrual accounting and a budgetary basis. Under the accrual
   method, revenues are recognized when earned and expenses are recognized when a liability is
   incurred, without regard to receipt or payment of cash. Budgetary accounting facilitates
   compliance with legal constraints and controls over the use of Federal funds. These financial
   statements include all funds for which the FNS is responsible and were prepared in accordance
   with the GAAP hierarchy of accounting principles for the Federal Government.




                                                  Page 32 of 49
                         FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                       NOTES TO THE FINANCIAL STATMENTS




D. Accounts Receivable

 The $324 recognized as non-federal accounts receivable includes debts owed FNS by individuals,
 businesses, States and local governments. The largest single component of this item consists of
 SNAP recipient claims. States establish claims against households to recover overissued food
 stamp benefits after they confirm that such overissuance has taken place. They are then
 responsible for pursuing collection of such claims. Collections, less an authorized State retention
 amount, are remitted to FNS. The portion of total net realizable receivables consisting of SNAP
 recipient claims is the expected amount of such remittance from States. The data generated by
 the State systems of gross account receivables has been determined to be unreliable.
 Accordingly, FNS does not know what the State gross account receivable is. FNS does not have
 any alternative method for acquiring reliable State receivable information.

 FNS estimates net realizable SNAP accounts receivable through a regression-based statistical model.
 This model estimates future collections by the States, which the States will remit to the Federal
 Government as of the end of the accounting period (Federal fiscal year) based on the actual SNAP
 issuance and net claims collections for prior years. The forecasting model draws its predictive power
 from the strong historical relationship between the level of SNAP benefit issuance and the level of
 recipient claims collections by States. Applying the model to actual data covering the periods FY 1984
 through FY 2009, the model explains 96 percent of the variation in claims collections. Historically, one-
 year-ahead collections projected by the model have proved to be accurate within approximately 4 percent
 of actual net collections. Because the expected cash flow from collections of such claims beyond one
 year is not expected to be material, FNS does not estimate collections after the initial year or discount the
 estimate produced by the statistical model to its present value.

 The SNAP has a system for monitoring and controlling program issuance called the Quality
 Control (QC) system. It is an ongoing, comprehensive monitoring system required by the SNAP
 Act to promote program integrity. A statistically valid sample of cases, consisting of active cases
 and “negative case actions” (terminations and denials of benefits), is chosen each month. State
 officials review the sampled case records to measure and verify the accuracy of eligibility and
 benefits determinations, made by State eligibility workers, against Program standards for the
 month under review. QC errors detected through the review process include both underissuance
 and overissuance to eligible households and issuance to households that are not eligible for
 benefits.

 Because reliable data is not available addressing gross FNS accounts receivable, the SNAP QC
 estimate of SNAP benefits overissued nationwide provide the best statistically valid estimate of
 invalid program payments. Fiscal Year 2008 QC error rates were announced in June 2009. Using
 this methodology, FNS estimates the value of benefit overissuance in Fiscal Year 2008 (the most
 recent year for which data are available) at $1.387 billion. Statement of Federal Financial
 Accounting Standards (SFFAS) #1 permits Federal entities to estimate its accounts receivable.
 The QC error rate overissuance estimate is considered the best estimate available. However,
 since this is an estimate of all SNAP overpayments, the actual State gross account receivable
 amount would be lower but the variance can not be quantified. The amount of overissued food
 stamps is included in the total program cost of the SNAP as reflected in the Statement of Net
 Cost. A material amount of the estimate would be bad debt expense if the amount of this estimate
 pertaining to accounts receivable could be quantified.


 FNS does not receive information to calculate States’ QC liabilities for approximately 7 months after the
 end of the fiscal year, therefore, current information is not available for the FY 2009 financial statements.
 For FY 2008, three States were assessed liabilities for having excessive error rates for two consecutive
 years. The aggregate total of the liability was $980 thousand. The three States signed payment


                                                  Page 33 of 49
                          FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                      NOTES TO THE FINANCIAL STATMENTS




 agreements in lieu of immediately repaying in cash. The agreements called for each State to invest 50
 percent of its liability in program improvement activities. The remaining 50 percent of the liability was
 placed at risk pending future improved performance.


         The QC over Issuance error rate data for the past 3 years follows:

            Fiscal Year             Rate Amount                  Total $ (Billions)
            2008                    4.01 %                       $ 1.387
            2007                    4.58 %                       $ 1.392
            2006                    4.82 %                       $ 1.453


E. Grants and Program Benefits

FNS records grant obligations based on the grant awards and SNAP benefits based on the issuance of
benefits to recipients. Funds for FNS grant programs and SNAP electronic benefits transfer (EBT) benefits
are provided to States through a Letter of Credit process. This process allows the grantees or the EBT
processor to draw on established credit balances, as needed, to pay expenses associated with their grants
or SNAP EBT transactions at retailers. This allows FNS to hold funds until the grantees need the funds to
pay program expenses or until the SNAP EBT benefits are actually used. Expenses are recognized as
grantees or EBT processors drawdown on the Letter of Credit.

F. Annual, Sick, and Other Leave

 Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year,
 the balance in the accrued annual leave account is adjusted to reflect current pay rates. To the
 extent that current or prior year appropriations are not available to fund annual leave earned but
 not taken, funding will be obtained from future financing sources. Sick leave and other types of
 nonvested leave are expensed as taken.



G. Retirement Plan

 FNS employees participate in both the Civil Service Retirement System (CSRS) and the Federal
 Employees Retirement System (FERS). FNS makes matching contributions to the CSRS total
 plan equal to 8.5 percent of pay, while contributions to the FERS total plan are 10.7 percent of
 pay. For most employees hired since December 31, 1983, FNS also contributes the employer's
 matching share for Social Security. FERS went into effect pursuant to Public Law 99-335 on
 January 1, 1987. Most employees hired after December 31, 1983, are automatically covered by
 FERS and Social Security. A primary feature of FERS is that it offers a savings plan to which FNS
 automatically contributes 1 percent of pay and matches any employee contribution up to an
 additional 4 percent of pay. FNS makes these and other contributions to employee retirement
 plans as shown in the following table:




                                                 Page 34 of 49
                         FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                      NOTES TO THE FINANCIAL STATMENTS




                          FNS Retirement Contributions (In Millions)
                                                                            Amount
  Type of Contribution                                                    2009         2008

  CSRS/Transitional retirement contributions - Civil Service             $0.4          $0.3
  FERS regular contributions                                             $7.9          $7.3
  Thrift Savings Plan contributions                                      $3.1          $2.8
  TOTAL                                                                  $11.4        $10.4




 These contributions are reported as expenses in the Statement of Net Cost. FNS does not report
 CSRS and FERS assets, accumulated plan benefits, or unfunded liabilities, if any, applicable to its
 employees. Reporting such amounts is the responsibility of the Office of Personnel
 Management's Federal Retirement System.

 Statement of Federal Financial Accounting Standards No. 5, Accounting for Liabilities of the Federal
 Government, requires Federal entities to recognize an expense for pensions and other retirement benefits
 at the time the employee’s services are rendered. The purpose of recognizing this expense is to record
 and report the full cost of each entity’s operation. A corresponding revenue, Imputed Financing Sources,
 is recognized to the extent pension and other retirement benefit expenses exceed the amount paid to the
 Office of Personnel Management (OPM).

H. Recognition of Financing Sources and Appropriations Used

 FNS receives the majority of the funding it needs to support its programs through annual and
 multi-year appropriations. FNS recognizes appropriations as used at the time that program or
 administrative expenses are paid. FNS recognizes appropriations expended for capitalized
 property or equipment as expenses when the assets are purchased. Appropriations used is the
 amount of appropriations expended during the current period to fund FNS’ nutrition programs. This
 includes the NPA appropriation, which provides funds for salaries and administrative expenses.

 At the time grant awards are established, FNS records obligations for the full amount of expected
 program expenses as unexpended obligations-unpaid (undelivered orders). Reductions in
 unexpended obligations occur as expenses are incurred by grantees. At year-end, grant
 obligations are accrued and reflected on statements as accounts payable. At grant closeout, the
 unused portions of grant awards are deobligated, increasing the unobligated balances and are
 shown on the balance sheet as part of unexpended appropriations. Unobligated balances
 available for future periods are also shown as unexpended appropriations.

I. Fund Balance With Treasury Accounts

  The Fund Balance with Treasury represents the aggregate amount of funds in the FNS accounts with
  Treasury for which the agency is authorized to make expenditures and pay liabilities. The FNS Fund
  Balance with Treasury is primarily appropriated funds.

J. Direct vs Reimbursable Obligations Incurred

   As of fiscal year 2009 FNS’ direct and reimbursable obligations incurred are represented as amounts
   apportioned under categrory A and B. The amounts apportioned by Fiscal Quarter consist of FNS’
   category A obligations and the amounts apportioned for Special Activities consist of category B


                                                 Page 35 of 49
                      FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                 NOTES TO THE FINANCIAL STATMENTS




obligations as reported on the agency’s year-end SF133s, Report on Budget Execution and Budgetary
Resources, and lines 8a and 8b of the Statement of Budgetary Resources.




Note 2. Non-Entity Assets



                                                                    FY 2009           FY 2008
Intragovernmental:
  Fund balance with Treasury                                            $0                 $1
  Investments                                                            -                  -
  Accounts Receivable                                                    -                  -
  Loans Receivable                                                       -                  -
  Other                                                                  -                  -
Total Intragovernmental                                                  -                  1
With The Public
  Cash and other monetary assets                                         -                  -
  Accounts receivable                                                   29                 34
  Taxes receivable                                                       -                  -
  Loan receivable and related foreclosed property                        -                  -
  Inventory and related porperty                                         -                  -
  Other                                                                  -                  -
Total With the Public                                                   29                 34

Total non-entity assets                                                 29                 35

Total entity assets                                                 21,560             19,091

Total assets                                         $              21,589    $        19,126

FNS’ Non-Entity Assets related to Accounts Receivable consists of FNS’ Miscellaneous Receipts,
Interest, Fines & Penalties, and Miscellaneous Receipts for Cancelled Years.




                                            Page 36 of 49
                        FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                        NOTES TO THE FINANCIAL STATMENTS




Note 3. Fund Balance with Treasury


Fund Balances:                                                      FY 2009                  FY 2008
   Trust Funds                                                  $            - $                   -
   Revolving Funds                                                           -                     -
   Appropriated Funds                                                   20,820                18,545
   Other Fund Types                                                          -                     1
Total                                                                   20,820                18,546

Status of Fund Balance with Treasury:
Unobligated Balance:
   Available                                                             1,520                   974
   Unavailable                                                          13,953                13,283
Obligated Balance not yet Disbursed                                      5,347                 4,288
Non-Budgetary Fund Balance with Treasury:
Clearing Account Balances                                                    -                     1
Borrowing Authority not Yet Converted to Fund Balance                        -                     -
Total                                                           $       20,820 $              18,546




Note 4. Accounts Receivable,Net




                                              Allowance for
                        Gross Accounts        Uncollectible              Accounts
   FY 2009              Receivable            Accounts                   Receivable, Net
Intragovernmental       $              -      $             -            $               -
With the Public         $          327        $             3            $           324
  Total                 $          327        $             3            $           324



                                              Allowance for
                        Gross Accounts        Uncollectible              Accounts
   FY 2008              Receivable            Accounts                   Receivable, Net
Intragovernmental       $              -      $             -            $               -
With the Public         $          266        $             5            $           261
  Total                 $          266        $             5            $           261



(1) See Note 1.D. for further explanation of FNS’ accounts receivable activity with the public.




                                                        Page 37 of 49
                       FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                      NOTES TO THE FINANCIAL STATMENTS




Note 5. General Property, Plant and Equipment

Property and equipment are depreciated over their useful economic lives, which average 5-10
years, using the straight-line method. For FY 2009 FNS’ capitalization threshold for property and
equipment is $25 thousand. FNS’ capitalization threshold for internal-use software is $100
thousand. FNS owns no buildings or land. FNS follows recognition and measurement criteria in
SFFAS No. 6 as amended by SFFAS No. 11 and 23, and USDA Departmental Regulation 2200-
002, dated December 24, 2003. At year end, balances for Property, Plant, and Equipment were
as follows:

 FY 2009                                             Useful                                                  Net
                                                      Life                               Accumulated        Book
 Category                                           (Years)              Cost            Depreciation       Value
 Land and Land Rights                                            $              -    $             -        $   -
 Improvements to Land                                                            -                      -           -
 Construction-in-Progress                                                        -                      -           -
 Buildings, Improvements and Renovations                                         -                      -           -
 Other Structures and Facilities                                                 -                      -           -
 Equipment                                           5-10                        5                      3           2
 Assets Under Capital Lease                                                      -                      -           -
 Leasehold Improvements                                                          -                      -           -
 Internal-Use Software                                5                         31                     29           2
 Internal-Use Software in Development                                            -                      -           -
 Other Natural Resources                                                         -                      -           -
 Other General Property, Plant and Equipment                                     -                      -           -
   Total                                                         $              36   $                 32   $       4




 FY 2008                                             Useful                                                  Net
                                                      Life                               Accumulated        Book
 Category                                           (Years)              Cost            Depreciation       Value
 Land and Land Rights                                            $              -    $             -        $   -
 Improvements to Land                                                            -                      -        -
 Construction-in-Progress                                                        -                      -        -
 Buildings, Improvements and Renovations                                         -                      -        -
 Other Structures and Facilities                                                 -                      -        -
 Equipment                                           5-10                        5                      3        2
 Assets Under Capital Lease                                                      -                      -        -
 Leasehold Improvements                                                          -                      -        -
 Internal-Use Software                                5                         31                     23        8
 Internal-Use Software in Development                                            -                      -        -
 Other Natural Resources                                                         -                      -        -
 Other General Property, Plant and Equipment                                     -                      -        -
   Total                                                         $              36   $                 26   $   10




                                                 Page 38 of 49
                             FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                                NOTES TO THE FINANCIAL STATMENTS




 Note 6. Other Assets

                                                                                     FY 2009                 FY 2008
Intragovernmental:
   Advances to Others                                                            $          -           $                         -
   Prepayments                                                                                -                                     -
   Other Assets                                                                             441                                   309
Total Intragovernmental                                                                     441                                   309

With the Public:
  Advances to Others                                                                            -                                     -
  Prepayments                                                                                   -                                     -
  Other Assets                                                                                  -                                     -
Total With the Public                                                                           -                                     -


Total Other Asssets                                                              $          441         $                         309




FNS’ “Intragovernmental-Other Assets” consist of Advances to Farm Service Agency/Commodity Credit
Corporation for the purchase of commodities.


Note 7. Liabilities Not Covered by Budgetary Resources



  Intragovernmental:                                                                 FY 2009                FY 2008
     Accounts payable                                                        $            -         $                    -
     Debt                                                                                   -                             -
     Other                                                                                  1                             1
  Total Intragovernmental                                                                   1                             1
  With the Public:                                                                          -                             -
  Accounts Payable                                                                          -                             -
  Debt held by the public                                                                   -                             -
  Federal employee and veterans' benefits                                                   6                             7
  Environmental and disposal liabilities                                                    -                             -
  Benefits due and payable                                                                  -                             -
  Other                                                                                    11                            10
  Total With the Public                                                                   17                             17


  Total liabilities not covered by budgetary resources                                    18                                 18


  Total liabilities covered by budgetary resources                                      4,278                          3,574

  Total liabilities                                                          $          4,296   $                      3,592



 FNS’ “Intragovernmental-Other Liabilities” consist of Unfunded FECA Liability. FNS’ “With the
 Public-Other Liabilities” consist of Custodial Liability and Unfunded Leave.




                                                           Page 39 of 49
                             FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                              NOTES TO THE FINANCIAL STATMENTS




Note 8. Other Liabilities

   FY 2009                                                          Non-Current          Current        Total
   Intragovernmental:
     Contract Holdbacks                                     $               -        $      -      $     -
     Other Accrued Liabilities                                                   -           1            1
     Employer Contributions and Payroll Taxes                                    -           1            1
     Other Post-Employment Benefits Due and Payable                              -           -            -
     Unfunded FECA Liability                                                     -           1            1
     Other Unfunded Employment Related Liability                                 -           -            -
     Advances from Others                                                        -           -            -
     Deferred Credits                                                            -           -            -
     Liability for Deposit Funds, Clearing Accounts                              -           -            -
     Contingent Liabilities                                                      -           -            -
     Capital Lease Liability                                                     -           -            -
     Liability for Subsidy Related to Undisbursed Loans                          -           -            -
     Accounts Payable from Canceled Appropriations                               -           -            -
     Resources Payable to Treasury                                               -           -            -
     Custodial Liability                                                         -          29           29
     Other Liabilities                                                           -           -            -
   Total Intragovernmental                                                       -          32           32

   With the Public:
    Contract Holdbacks                                                           -            -            -
    Other Accrued Liabilities                                                    -        1,117        1,117
    Accrued Funded Payroll and Leave                                             -            6            6
    Withholdings Payable                                                         -            -            -
    Employer Contributions and Payroll Taxes Payable                             -            -            -
    Other Post-Employment Benefits Due and Payable                               -            -            -
    Pension Benefits Due and Payable to Beneficiaries                            -            -            -
    Benefit Premiums Payable to Carriers                                         -            -            -
    Life Insurance Benefits Due and Payable                                      -            -            -
    Unfunded Leave                                                               -           11           11
    Other Unfunded Employment Related Liability                                  -            -            -
    Advances from Others                                                         -            -            -
    Deferred Credits                                                             -            -            -
    Liability for Deposit Funds, Clearing Accounts                               -            -            -
    Prior Liens Outstainding or Acquired Collateral                              -            -            -
    Contingent Liabilities                                                       -            -            -
    Capital Lease Liability                                                      -            -            -
    Accounts Payable from Canceled Appropriations                                -            -            -
    Custodial Liability                                                          -            -            -
    Other Liabilities                                                            -            -            -
   Total With the Public                                                         -        1,134        1,134

   Total Other Liabilities                                  $                    -   $    1,166    $   1,166




                                                          Page 40 of 49
                          FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                           NOTES TO THE FINANCIAL STATMENTS




FY 2008                                                            Non-Current        Current       Total
Intragovernmental:
  Contract Holdbacks                                       $              -       $      -      $    -
  Other Accrued Liabilities                                                   -           1           1
  Employer Contributions and Payroll Taxes                                    -           1           1
  Other Post-Employment Benefits Due and Payable                              -           -           -
  Unfunded FECA Liability                                                     -           1           1
  Other Unfunded Employment Related Liability                                 -           -           -
  Advances from Others                                                        -           -           -
  Deferred Credits                                                            -           -           -
  Liability for Deposit Funds, Clearing Accounts                              -           -           -
  Contingent Liabilities                                                      -           -           -
  Capital Lease Liability                                                     -           -           -
  Liability for Subsidy Related to Undisbursed Loans                          -           -           -
  Accounts Payable from Canceled Appropriations                               -           -           -
  Resources Payable to Treasury                                               -           -           -
  Custodial Liability                                                         -          34          34
  Other Liabilities                                                           -           -           -
Total Intragovernmental                                                       -          37          37

With the Public:
 Contract Holdbacks                                                           -           -           -
 Other Accrued Liabilities                                                    -         770         770
 Accrued Funded Payroll and Leave                                             -           -           -
 Withholdings Payable                                                         -           -           -
 Employer Contributions and Payroll Taxes Payable                             -           -           -
 Other Post-Employment Benefits Due and Payable                               -           -           -
 Pension Benefits Due and Payable to Beneficiaries                            -           -           -
 Benefit Premiums Payable to Carriers                                         -           -           -
 Life Insurance Benefits Due and Payable                                      -           -           -
 Unfunded Leave                                                               -          10          10
 Other Unfunded Employment Related Liability                                  -           -           -
 Advances from Others                                                         -           -           -
 Deferred Credits                                                             -           -           -
 Liability for Deposit Funds, Clearing Accounts                               -           1           1
 Prior Liens Outstainding or Acquired Collateral                              -           -           -
 Contingent Liabilities                                                       -           -           -
 Capital Lease Liability                                                      -           -           -
 Accounts Payable from Canceled Appropriations                                -           -           -
 Custodial Liability                                                          -           -           -
 Other Liabilities                                                            -           -           -
Total With the Public                                                         -         781         781

Total Other Liabilities                                    $                  -   $     818     $   818




                                                       Page 41 of 49
                       FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                      NOTES TO THE FINANCIAL STATMENTS




Note 9. Leases

Entity as Leasee:

Operating Lease (amounts shown are in thousands):

Description of Lease Arrangements: FNS’ operating lease includes office space. The office space is lease from
May 1, 2009 through April 30, 2019 at a cost of $609 per year until May 1, 2014. From May 1, 2014 through
April 30, 2019 the office space annual rent is reduced to $390 per year. The lease may be renewed at the option
of the Government for one 5 year term with the Government having right to terminate, in whole or in part, at anytime,
by giving at least 120 days notice in writing to the Lessor.

Future Payments Due:

                           Asset Category

Fiscal Year                Office Space

Year 1                        $355
Year 2                         $609
Year 3                         $609
Year 4                         $609
Year 5                         $609
After 5 years                $1,948

Total future lease payments $4,739
                             ====




                                                 Page 42 of 49
                       FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                 NOTES TO THE FINANCIAL STATMENTS




Note 10. Intragovernmental Cost and Exchange Revenue


     Child Nutrition                             FY 2009                FY 2008

     Intragovernmental Costs                 $             655      $                602
     Public Costs                            $          15,327      $             13,892
     Total Costs                             $          15,982      $             14,494

     Intragovernmental Earned Revenue        $                 -    $                  -
     Public Earned Revenue                   $                 -    $                  -
     Total Earned Revenue                    $                 -    $                  -

     SNAP

     Intragovernmental Costs                 $             321      $                 81
     Public Costs                            $          55,602      $             39,095
     Total Costs                             $          55,923      $             39,176

     Intragovernmental Earned Revenue        $                 -    $                 -
     Public Earned Revenue                   $                40    $                27
     Total Earned Revenue                    $                40    $                27

     Other                                       FY 2009                FY 2008

     Intragovernmental Costs                 $               116    $                121
     Public Costs                            $               281    $                275
     Total Costs                             $               397    $                396

     Intragovernmental Earned Revenue        $                 2    $                  1
     Public Earned Revenue                   $                 -    $                  -
     Total Earned Revenue                    $                 2    $                  1


     Women, Infants & Children

     Intragovernmental Costs                 $                  -   $                  -
     Public Costs                            $              6,813   $              6,251
     Total Costs                             $              6,813   $              6,251

     Intragovernmental Earned Revenue        $                  -   $                  -
     Public Earned Revenue                   $                  -   $                  -
     Total Earned Revenue                    $                  -   $                  -




                                            Page 43 of 49
                              FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                                 NOTES TO THE FINANCIAL STATMENTS




       Commodity Assistance Program                               FY 2009                FY 2008

       Intragovernmental Costs                               $                5      $                         12
       Public Costs                                          $              310      $                        223
       Total Costs                                           $              315      $                        235

       Intragovernmental Earned Revenue                      $                   -   $                            -
       Public Earned Revenue                                 $                   -   $                            -
       Total Earned Revenue                                  $                   -   $                            -



FNS’ intragovernmental costs are exchange transactions made between FNS and another entity
within the Federal government. FNS cost with the public are exchange transactions made between FNS
and a non-Federal entity. FNS’ intragovernmental exchange revenues are exchange transactions made
between FNS and another entity within the Federal government. FNS exchange revenues with the public
are exchange transactions made between FNS and a non-Federal entity.




Note 11. Program Costs By Segment

For the year ended September 30, 2009
                                                                       Women Commodit
                                                                       Infants     y
                                        CHILD NUTRITION    SNAP           &    Assistanc     OTHER       Consolidated Total



   Total Gross Costs                             15,982      55,923     6,813        315        397               79,430

   Less Earned Revenue:                               0           40         0           0           2                42

   Net Goal Costs:                               15,982      55,883     6,813        315        395               79,388


   Net Cost of Operations                                                                                         79,388




For the year ended September 30, 2008
                                                                       Women Commodit
                                                                       Infants     y
                                        CHILD NUTRITION    SNAP           &    Assistanc     OTHER       Consolidated Total



   Total Gross Costs                             14,494      39,176     6,251        235        396               60,552

   Less Earned Revenue:                               0           27         0           0           1                28

   Net Goal Costs:                               14,494      39,149     6,251        235        395               60,524


   Net Cost of Operations                                                                                         60,524




                                                            Page 44 of 49
                             FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                          NOTES TO THE FINANCIAL STATMENTS




Note 12. Exchange Revenues

FNS’ earned revenue from nonfederal parties consists largely of the $39 from the state option
Supplemental Nutrition Assistance Program.

On June 12, 1997, the President signed into law the Supplemental Appropriations Act, Public Law 105-
18. This law authorized the state option Supplemental Nutrition Assistance Program. In this program,
States issue SNAP benefits through the Federal government for use in a State-funded food assistance
program for legal immigrants, and childless, able-bodied adults ineligible for the Supplemental Nutrition
Assistance Program.

States operating a state option Supplemental Nutrition Assistance Program utilize FNS’ SNAP
infrastructure. That is, they utilized electronic benefits transfer (EBT) issued benefits from FNS which are
transacted at FNS authorized SNAP retailers. These benefits are subsequently redeemed through the
Federal Reserve Banking (FRB) system.

Prior to issuance, States are required to remit payment to FNS for the amount of the benefits issued as
well as reimburse FNS for the costs of redeeming benefits. During fiscal year 2009, 3 States participated
in this program, which generated earned revenues of $39.

Note 13. Apportionment Categories of Obligations Incurred: Direct vs Reimbursable Obligations

    FY 2009                              Direct                      Reimbursable            Total
Apportionment by Fiscal Quarter      $            26,217    $                        1   $           26,218
Apportionment for Special Activities              53,236                            41               53,277
Exempt from Apportionment                              -                             -                    -
Total Obligations Incurred           $            79,453    $                       42   $           79,495


    FY 2008                              Direct                      Reimbursable            Total
Apportionment by Fiscal Quarter      $            24,161    $                        1   $           24,162
Apportionment for Special Activities              36,441                            27               36,468
Exempt from Apportionment                              -                             -                    -
Total Obligations Incurred           $            60,602    $                       28   $           60,630




Note 14.Explanation of Differences Between the Statement of Budgetary Resources and the Budget of the United
States Government

Differences exist between FNS’ FY 2008 Statement of Budgetary Resources (SBR) (as provided to the
Department for consolidation purposes) and the FY 2008 actual numbers presented in the FY 2010
Budget of the United State Government (Budget). These differences are summarized below:

            Description                     Budgetary Resources                               Outlays
            2008 SBR                             $ 74,888                                     $59,773
Less: Expired Accounts not                            $10,876                                        $0
Included in Budget
Add: Parent Child Relationship                                  $2                                   $6
(CSREES)
Add: Differences due to                                      $(1)                                    $0
Rounding
Budget of the U.S.                                   $64,013                                  $59,779
Government



                                                           Page 45 of 49
                              FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                           NOTES TO THE FINANCIAL STATMENTS




The actual numbers for the President’s Budget has not yet been published as of FNS’ FY 2009 financial
statements, and it is expected that the actual numbers will be published in February of the following fiscal
year and will be available on the website at www.whitehouse.gov.

Note 15. Undelivered Orders at the end of the Period

Budgetary resources obligated for undelivered orders as of September 30, 2009 and 2008 was $1.2 billion
and $780, respectively.


Note 16. Incidental Custodial Collections




Revenue Activity:                                                             FY 2009             FY 2008
  Sources of Collections:
  Miscellaneous                                                           $             2     $              (8)
Total Cash Collections                                                                  2                    (8)
Accrual Adjustments                                                                     (5)                   -
Total Custodial Revenue                                                                 (3)                  (8)
Disposition of Collections:
Transferred to Others:
    Treasury                                                                            -                    -
    States and Counties                                                                 -                    -
( Increase )/Decrease in Amounts Yet to be Transferred                                  3                    8
Refunds and Other Payments                                                              -                    -
Retained by the Reporting Entity                                                        -                    -
Net Custodial Activity                                                    $              -    $               -


FNS’ FY 2009 custodial activity represents all accounts receivable activity related to canceled year
appropriations for interest, fines & penalties assessed and collected. For example, civil money penalties,
interest, retailer and wholesaler fines and penalties. (See Note 1D., “Accounts Receivable”, for further
disclosures on FNS’ collection activities). FNS transfers these types of collections to the Department of
Treasury. FNS’ custodial collection activities are considered immaterial and incidental to the mission of
FNS.




                                                         Page 46 of 49
                       FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                     NOTES TO THE FINANCIAL STATMENTS




Note 17. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the Statement of
Financing)


Resources Used to Finance Activities:                                           FY 2009             FY2008

Budgetary Resources Obligated

    Obligations Incurred                                                      $ 79,495             $ 60,630
    Less: Spending authority from offsetting collections and recoveries             591                  722
                                                                                ------------        -----------
    Obligations net of offsetting collections and recoveries                     78,904              59,908
    Less: Distributed Offsetting Receipts                                               -                   1
                                                                                ------------        -----------
    Net Obligations                                                              78,904              59,907
                                                                                 ------------       -----------
    Other Resources
    Donations and forfeitures of property                                             -                   -
    Transfers in (out) without reimbursement                                           -                  -
    Imputed financing from costs absorbed by others                                1,029                 758
    Other                                                                               -                 -
                                                                                  ------------       -----------
    Net other resources used to finance activities                                  1,029                758


                                                                                    FY 2009            FY 2008


    Total resources used to finance activities                                      79,933               60,665

   Resources Used to Finance Items not Part of the Net Cost of Operations:
   Change in budgetary resources obligated for goods, services and benefits
   ordered but not yet provided                                                         (483)              (121)
   Resources that fund expenses recognized in prior periods                               (1)                (1)
   Budgetary offsetting collections and receipts that do not
   affect net cost of operations
      Credit Program collections which increases liabilities for
       loan guarantees or allowances for subsidy                                           -                   -
       Change in Unfilled Customer Orders                                                   -                  -
       Decrease in exchange revenue receivable from the public                              -                   -
       Other                                                                                -                   -
   Resources that finance the acquisition of assets                                        (1)                (1)
   Other resources or adjustments to net obligated resources that
   do not affect net cost of operations                                                      -                2
                                                                                     -----------     -------------
    Total resources used to finance items not part of the net cost
    of operations                                                                        (485)             (121)
                                                                                     -----------      ------------

    Total resources used to finance the net cost of operations                        79,448            60,544




                                                 Page 47 of 49
                  FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                               NOTES TO THE FINANCIAL STATMENTS




Components of the Net Cost of Operations that will not Require or
Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
   Increase in annual leave liability                                       1                  -
   Increase in environmental and disposal liability                          -                  -
   Upward/Downward reestimates of credit subsidy expense                     -                 -
   Increase in exchange revenue receivable from the public                   -                 -
   Other                                                                  (67)              (33)
                                                                      ----------      -----------
  Total components of Net Cost of Operations that will require or
  generate resources in future periods                                    (66)             (33)
Components not Requiring or Generating Resources:
  Depreciation and amortization                                             6                 6
  Revaluation of assets or liabilities                                      -                  -
  Other Components not Requiring or Generating Resources:
     Bad Debt Expense                                                       -                12
     Cost of Goods Sold                                                     -                  -
     Other                                                                  -                (5)
                                                                       -----------    ----------
   Total components of Net Cost of Operations that will not require
   or generate resources                                                     6               13
                                                                        -----------    ----------

   Total components of Net Cost of Operations that will not require
   or generate resources in the current period                             (60)            (20)
                                                                        ----------     ----------

   Net Cost of Operations                                             $ 79,388 $ 60,524
                                                                       ====== ======




                                          Page 48 of 49
                        FINANCIAL REPORT - U.S.D.A. - F.N.S. - FY 2009
                                 REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION




                          FOOD AND NUTRITION SERVICE
               REQUIRED SUPPLEMENTARY STEWARDHIP INFORMATION
                           STEWARDSHIP INVESTMENTS
                            (Amounts shown are in millions)


Human Capital

1. A. Supplemental Nutrition Assistance Program (SNAP).

     B. Program Expense                             2009        2008

        1. Employment and Training                   $19         $36

FNS’ human capital consist of employment and training (E&T) for the Supplemental Nutrition Assistance Program.
The E&T program requires recipients of SNAP benefits to participate in an employment and training program as a
condition to SNAP eligibility.

Outcome data for the E&T program is only available through the third quarter. As of this period, FNS’ E&T
program has placed 955,329 work registrants subject to the 3 - month SNAP participant limit and 1,706,182 work
registrants not subject to the limit in either job-search, job-training, job-workfare, education, or work experience.


Nonfederal Physical Property

1.    A. Supplemental Nutrition Assistance Program

      B. Program Expense                           2009        2008

          1. ADP Equipment & Systems                $55        $32


FNS’ nonfederal physical property consists of computer systems and other equipment obtained by the State and
local governments for the purpose of administering the Supplemental Nutrition Assistance Program. The total SNAP
Expense for ADP Equipment & Systems has been reported as of the date of FNS’ financial statements.


2. A. Special Supplemental Nutrition Program for Women, Infants and Children (WIC)

      B. Program Expense                           2009        2008

          1. ADP Equipment & Systems                 $15       $11


FNS’ nonfederal physical property also consists of computer systems and other equipment obtained by the State and
local governments for the purpose of administering the Special Supplemental Nutrition Program for Women, Infants
and Children.




                                                     Page 49 of 49
